No.

In The Supreme Court of the United States
SOUTHWEST AIRLINES CO.
Petitioner,
v.
LATRICE SAXON
Respondent.

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Seventh Circuit
PETITION FOR A WRIT OF CERTIORARI

SCOTT A. CHESIN
MELISSA A. SIEBERT
Shook, Hardy &
Counsel of Record
Bacon L.L.P.
Shook, Hardy &
1325 Avenue of the
Bacon L.L.P.
Americas, 28th
111 South Wacker
Floor
Drive, Suite 4700
New York, N.Y.
Chicago, Ill. 60606
10019
(312) 704-7700
(212) 779-6016
masiebert@shb.com
schesin@shb.com
(additional counsel listed on inside cover)

KATELAND R. JACKSON
Shook, Hardy &
Bacon L.L.P.
1800 K Street, NW, Suite
1000
Washington, D.C. 20006
(202) 662-4852
krjackson@shb.com

CHRISTOPHER R. WRAY
Shook, Hardy &
Bacon L.L.P.
2555 Grand Blvd.
Kansas City, Mo.
64108-2613
(816) 559-2014
cwray@shb.com

i
QUESTION PRESENTED
Section 1 of the Federal Arbitration Act
(“FAA”) provides that the FAA does not apply “to
contracts of employment of seamen, railroad
employees, or any other class of workers engaged in
foreign or interstate commerce.” 9 U.S.C. § 1. In
Circuit City Stores, Inc. v. Adams, 532 U.S. 105
(2001), this Court held that Section 1 applies only to
interstate “transportation workers.” The Court did
not define the term “transportation worker.”
In the 20 years since Circuit City, the lower
courts have struggled to apply its holding
consistently, leading to divergent results in similar
cases. This case exemplifies the inconsistency and
creates a clear conflict of authorities. The Seventh
Circuit held that a Ramp Agent Supervisor with
Southwest Airlines Co., who supervises employees
who load and unload baggage from airplanes and
assists with such duties, but does not physically
transport people or goods, is a “transportation
worker” exempt from the FAA. That directly conflicts
with Eastus v. ISS Facility Servs., Inc., 960 F.3d 207
(5th Cir. 2020), where the Fifth Circuit held that an
airline worker with identical responsibilities was not
a “transportation worker” and was thus subject to the
FAA. The question presented is:
Whether workers who load or unload goods
from vehicles that travel in interstate commerce, but
do not physically transport such goods themselves,
are interstate “transportation workers” exempt from
the Federal Arbitration Act.

ii
PARTIES TO THE PROCEEDING
All parties to the proceeding are set forth in the
caption.
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6,
undersigned counsel state that petitioner Southwest
Airlines Co. is a publicly-held corporation and has no
parent corporation. PRIMECAP Management
Company has filed a Form 13G with the Securities
and Exchange Commission stating that it beneficially
owns more than 10% of the shares of Southwest
Airlines Co. No other entity has reported holdings of
over 10% of Southwest Airlines Co.
RELATED PROCEEDINGS
Pursuant to this Court’s Rule 14.1(b)(iii), the
following proceedings are related to this case:
• Saxon v. Southwest Airlines Co., No. 1:19-cv00403 (N.D. Ill.) (judgment entered October 8, 2019).
• Latrice Saxon v. Southwest Airlines Co., No. 1903226 (7th Cir.) (judgment entered March 31, 2021,
motion to stay the mandate denied April 23, 2021).
There are no additional proceedings in any
court that are directly related to this case.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
PARTIES TO THE PROCEEDING ........................... ii
CORPORATE DISCLOSURE STATEMENT ........... ii
RELATED PROCEEDINGS ...................................... ii
INTRODUCTION .......................................................1
OPINIONS BELOW ....................................................5
JURISDICTION ..........................................................5
STATUTORY PROVISIONS INVOLVED .................6
STATEMENT ..............................................................8
A.

Background on the FAA and the Section 1
Exemption ................................................... 8

B.

Facts and Procedural History ................... 10

REASONS FOR GRANTING THE PETITION .......13
A.

Saxon Deepens the Divide Among the
Circuits Over Who Qualifies As a
“Transportation Worker.” ......................... 13
1.

Saxon Created a Clear Split with
Eastus. ............................................ 13

2.

Saxon Exacerbates Existing
Confusion Among the Circuits. ...... 16

iv
TABLE OF CONTENTS--continued
Page
B.

Saxon Conflicts with This Court’s Existing
Precedent Interpreting the FAA and
Limiting the Section 1 Exemption to Those
Workers Who Have an Active Role in
Moving Goods Across State Lines. ........... 22

C.

The Circuit Split Created by Saxon
Undermines National Uniformity in
Resolving Workplace Disputes. ................ 26
1.

The Circuit Split Encourages
Inconsistency Among the Circuits in
Enforcing Arbitration Agreements.
......................................................... 26

2.

The Circuit Split Frustrates the
Complementary Purposes of the FAA
and the RLA. .................................. 30

CONCLUSION ..........................................................32
APPENDIX TABLE OF CONTENTS
Page
APPENDIX A: Opinion of the United States Court
of Appeals for the Seventh Circuit, dated
March 31, 2021 ...............................................1a
APPENDIX B: Opinion and Order of the United
States District Court for the Northern
District of Illinois, dated October 8, 2019 ...22a

v
TABLE OF AUTHORITIES
Page(s)
CASES
Allied-Bruce Terminix Co., Inc. v. Dobson,
513 U.S. 265 (1995) ...................................... 22, 26
Am. Express Co. v. Italian Colors Rest.,
570 U.S. 228 (2013) ............................................. 23
Am. Postal Workers Union, AFL-CIO v.
U.S. Postal Service,
823 F.2d 466 (11th Cir. 1987)............................. 19
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011)....................................... 22, 26
Bacashihua v. U.S. Postal Service,
859 F.2d 402 (6th Cir. 1988)............................... 19
Bhd. of Locomotive Eng’rs and Trainmen v.
Union Pac. R.R. Co.,
879 F.3d 754 (7th Cir. 2017)..........................30-31
Capriole v. Uber Technologies, Inc.,
No. 20-16030, 2021 WL 3282092
(9th Cir. Aug. 2, 2021) .................................... 3, 18
Circuit City Stores, Inc. v. Adams,
532 U.S. 105 (2001) ............................ i, 8-9, 23-24
Eastus v. ISS Facility Servs., Inc.,
960 F.3d 207 (5th Cir. 2020).............i, 2, 14-15, 21

vi
TABLE OF AUTHORITIES--continued
Page(s)
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018)...........4, 8, 22-23, 26-27, 31
Furlough v. Capstone Logistics, LLC,
No. 18-cv-02990-SVK, 2019 WL 2076723
(N.D. Cal. May 10, 2019) .................................... 19
Hawaiian Airlines, Inc. v. Norris,
512 U.S. 246 (1994) ........................................30-31
Hill v. Rent-A-Center, Inc.,
398 F.3d 1286 (11th Cir. 2005)........................... 17
In re Grice,
974 F.3d 950 (9th Cir. 2020)...................... 3, 18-19
Int’l Bhd. of Teamsters Local Union No. 50 v.
Kienstra Precast, LLC,
702 F.3d 954 (7th Cir. 2012)..........................16-17
Kropfelder v. Snap-On Tools Corp.,
859 F. Supp. 952 (D. Md. 1994) .......................... 20
McDermott Int’l, Inc. v. Wilander,
498 U.S. 337 (1991) ............................................. 29
Moses H. Cone Mem. Hosp. v. Mercury Constr. Corp.,
460 U.S. 1 (1983)................................................. 22
New Prime Inc. v. Oliveira,
139 S. Ct. 532 (2019)............................. 1, 9, 16, 24

vii
TABLE OF AUTHORITIES--continued
Page(s)
Palcko v. Airborne Express, Inc.,
372 F.3d 588 (3d Cir. 2004) ...........................20-21
Rittman v. Amazon.com, Inc.,
383 F. Supp. 3d 1196 (W.D. Wash. 2019) .......... 19
Rittmann v. Amazon.com, Inc.,
971 F.3d 904 (9th Cir. 2020)........................... 2, 17
Romero v. Watkins & Shepard Trucking, Inc.,
No. 20-55768, 2021 WL 3671380
(9th Cir. Aug. 19, 2021) ............................. 2, 17-18
Waithaka v. Amazon.com, Inc.,
966 F.3d 10 (1st Cir. 2020) ............................. 2, 18
Wallace v. Grubhub Holdings, Inc.,
970 F.3d 798 (7th Cir. 2020)............... 3, 12, 16, 19
STATUTES
9 U.S.C. § 1 ............................................................. 1, 6
9 U.S.C. § 2 ..............................................................6-7
28 U.S.C. § 1254(1)..................................................... 5
45 U.S.C. § 151 ........................................................... 4
45 U.S.C. § 151a ................................................... 7, 30
45 U.S.C. § 152 ............................................ 7-8, 25, 31

viii
TABLE OF AUTHORITIES--continued
Page(s)
OTHER AUTHORITIES
Brian Farkas, The Continuing Voice of Dissent:
Justice Thomas and The Federal Arbitration Act,
22 Harv. Negot. L. Rev. 33 (2016) ...................... 28
Matthew W. Finkin, Workers’ Contracts under the
United States Arbitration Act: An Essay in
Historical Clarification, 17 Berkeley J. Emp. &
Lab. L. 282 (1996) ............................................... 25
Richard C. Reuben, Public Justice: Toward A State
Action Theory of Alternative Dispute Resolution,
85 Calif. L. Rev. 577 (1997) ................................ 28

1
INTRODUCTION
This case presents the Court with an
opportunity to resolve a widening and problematic
split of authority that has undermined national
uniformity in the enforceability of arbitration
agreements. Section 1 of the FAA provides an
exemption for “contracts of employment of seamen,
railroad employees, or any other class of workers
engaged in foreign or interstate commerce.” 9 U.S.C.
§ 1. This Court held in Circuit City that the Section 1
exemption is to be read narrowly, so that it applies
only to “transportation workers” who are actually
“engaged in” foreign or interstate commerce.
Although the Court recently decided how the Section
1 exemption relates to employment contracts, it has
so far declined to define what types of employees
qualify as transportation workers subject to the
exemption. See New Prime Inc. v. Oliveira, 139 S. Ct.
532, 539 (2019).
This lack of guidance has led to a clear split of
authority among the Circuits and profound confusion
in the federal lower courts over which types of
workers are transportation workers. In this case, the
Seventh Circuit held that Ms. Saxon (the PlaintiffRespondent), a Ramp Agent Supervisor for Southwest
who occasionally loads and unloads passenger
baggage from airplanes, is a transportation worker
exempt from the FAA. According to the Seventh
Circuit, any worker who “load[s] or unload[s] cargo
onto a vehicle so that it may be moved interstate” is

2
an exempt transportation worker, regardless of
whether they personally transport the goods. App.,
infra, 10a. In contrast, the Fifth Circuit held last year
that an airport agent supervisor who shared nearly
identical duties with Ms. Saxon, including
occasionally handling baggage at the airport, was not
a transportation worker. Eastus, 960 F.3d at 212. As
the Fifth Circuit explained, “[l]oading or unloading a
[vehicle] with goods prepares the goods for or removes
them from transportation” but is not itself
transportation. Id. These decisions directly conflict
and, without correction, create competing and
irreconcilable definitions of the term “transportation
worker.”
The confusion among the Circuit courts about
the definition of a transportation worker is not limited
to cases involving airline employees. It arises in
multiple scenarios, particularly in cases involving
workers
who
perform
purely
intrastate
transportation of people or goods. For example, the
First and Ninth Circuits have held that so-called
“last-mile” delivery drivers, who make intrastate
deliveries of goods that have previously traveled
interstate, are exempt transportation workers. See
Romero v. Watkins & Shepard Trucking, Inc., No. 2055768, 2021 WL 3671380 (9th Cir. Aug. 19, 2021)
(finding delivery driver of interstate goods exempt);
see also Rittmann v. Amazon.com, Inc., 971 F.3d 904
(9th Cir. 2020) (finding last-mile delivery driver
exempt); Waithaka v. Amazon.com, Inc., 966 F.3d 10
(1st Cir. 2020) (same). Yet local food delivery and

3
rideshare drivers who transport people and goods
that have traveled interstate are not exempt. See
Capriole v. Uber Technologies, Inc., No. 20-16030,
2021 WL 3282092 (9th Cir. Aug. 2, 2021) (Uber driver
not exempt); see also Wallace v. Grubhub Holdings,
Inc., 970 F.3d 798 (7th Cir. 2020) (local food delivery
driver not exempt); In re Grice, 974 F.3d 950 (9th Cir.
2020) (Uber driver not exempt).
Despite general confusion among the Circuits,
though, it was not until the Seventh Circuit’s decision
in Saxon that a clear split emerged. For the first time,
in this case, a court decided that a transportation
worker need not actually transport goods at all, even
intrastate, to qualify for exemption under Section 1.
The Seventh Circuit held that “[t]he act of loading
cargo onto a vehicle to be transported interstate is
itself commerce,” and that any performance of
“[l]oading and unloading cargo onto a vehicle so that
it may be moved interstate… is actual
transportation.” App., infra, 2a, 10a (emphasis
added). The Seventh Circuit is the only Circuit to
expand the exemption to such a wide-ranging class of
workers, and it is now in direct conflict with the Fifth
Circuit.
This sweeping decision poses a substantial risk
of damage to the smooth operation of our
transportation infrastructure by undermining
national uniformity in employer-employee relations.
Companies that operate nationwide rely on the
purpose of the FAA—efficient and uniform

4
enforcement of individualized arbitration—in
establishing arbitration agreements with their
employees across states. Indeed, in enacting the FAA,
Congress recognized that “arbitration had more to
offer than courts… not least the promise of quicker,
more informal, and often cheaper resolutions for
everyone involved.” Epic Sys. Corp. v. Lewis, 138 S.
Ct. 1612, 1621 (2018). Yet within the Seventh
Circuit’s jurisdiction, workers who agree to arbitrate
their employment-related claims may still be exempt
from arbitration under the FAA if they fit within
Saxon’s expanded transportation worker definition.
This approach will allow a much larger group of
workers to seek exemption nationwide, flipping the
FAA’s liberal policy of enforcing arbitration
agreements on its head. Saxon’s expanded
transportation worker definition also conflicts with
the purposes of other existing dispute resolution laws,
such as the Railway Labor Act (“RLA”), 45 U.S.C. §
151, et seq., which favors alternative dispute
resolution for covered workers’ disputes to reduce the
risk of disruption to the nation’s transportation
network.
Without the Court’s intervention, identical
lawsuits filed by identically situated employees will
be treated differently depending on where the parties
initiate suit. The result will be a Circuit-by-Circuit,
state-by-state, worker-by-worker inquiry in every
case. This outcome creates not only inconsistency but
also uncertainty, which the Circuit courts are unable
to resolve.

5
This case is an excellent vehicle to address the
widening Circuit split over who is a transportation
worker exempt from the FAA, and the Court should
consider it immediately.

OPINIONS BELOW
The opinion of the court of appeals (App., infra,
1a-21a) is published at 993 F.3d 492 (7th Cir. 2021).
The order of the district court granting petitioner’s
motion to compel arbitration (App., infra, 22a-43a) is
unreported.

JURISDICTION
The court of appeals filed its opinion and
judgment on March 31, 2021. App., infra, 1a.
Pursuant to this Court’s Order of July 19, 2021
relating to COVID-19, this petition is due 150 days
after the date of the lower court’s judgment. The
jurisdiction of this Court is invoked under 28 U.S.C. §
1254(1).

6
STATUTORY PROVISIONS INVOLVED
Section 1 of the Federal Arbitration Act, 9
U.S.C. § 1, provides, in relevant part:
"Maritime transactions", as herein
defined, means charter parties, bills of
lading of water carriers, agreements
relating to wharfage, supplies furnished
vessels or repairs to vessels, collisions,
or any other matters in foreign
commerce which, if the subject of
controversy, would be embraced within
admiralty jurisdiction; "commerce", as
herein defined, means commerce among
the several States or with foreign
nations, or in any Territory of the United
States or in the District of Columbia, or
between any such Territory and another,
or between any such Territory and any
State or foreign nation, or between the
District of Columbia and any State or
Territory or foreign nation, but nothing
herein contained shall apply to contracts
of employment of seamen, railroad
employees, or any other class of workers
engaged in foreign or interstate
commerce.
Section 2 of the Federal Arbitration Act, 9
U.S.C. § 2, provides:

7
A written provision in any maritime
transaction or a contract evidencing a
transaction involving commerce to settle
by arbitration a controversy thereafter
arising out of such contract or
transaction, or the refusal to perform the
whole or any part thereof, or an
agreement in writing to submit to
arbitration an existing controversy
arising out of such a contract,
transaction, or refusal, shall be valid,
irrevocable, and enforceable, save upon
such grounds as exist at law or in equity
for the revocation of any contract.
Section 151a of the Railway Labor Act,
45 U.S.C. § 151a, provides, in relevant part:
The purposes of the chapter are: (1) To
avoid any interruption to commerce or to
the operation of any carrier engaged
therein…; (4) to provide for the prompt
and orderly settlement of all disputes
concerning rates of pay, rules, or
working conditions; (5) to provide for the
prompt and orderly settlement of all
disputes growing out of grievances or out
of the interpretation or application of
agreements covering rates of pay, rules,
or working conditions.
Section 152, First, of the Railway Labor
Act, 45 U.S.C. § 152, provides:

8
It shall be the duty of all carriers, their
officers, agents, and employees to exert
every reasonable effort to make and
maintain agreements concerning rates
of pay, rules, and working conditions,
and to settle all disputes, whether
arising out of the application of such
agreements or otherwise, in order to
avoid any interruption to commerce or to
the operation of any carrier growing out
of any dispute between the carrier and
the employees thereof.

STATEMENT
A.

Background on the FAA and the
Section 1 Exemption

The FAA was enacted in 1925 to codify a broad
federal policy favoring arbitration. Epic Sys., 138 S.
Ct. at 1621. The Section 1 exemption covers a limited
group of employees (seamen, railroad employees, and
“any other class of workers engaged in foreign or
interstate commerce”) who, at the time of enactment,
were already covered by “established or developing
statutory dispute resolution schemes.” Circuit City,
532 U.S. at 121. Congress did not intend to leave
transportation workers without alternative dispute
resolution mechanisms. Rather, it expected them to

9
engage in arbitration governed by other federal
dispute resolution laws, such as the RLA.
Because the exemption is contained “in a
statute that seeks broadly to overcome judicial
hostility to arbitration agreements,” this Court held
in Circuit City that it should be narrowly construed
and the residual clause (“any other class of workers
engaged in foreign or interstate commerce”) “should
itself be controlled and defined by reference to the
enumerated categories of workers which are recited
just before it.” Id. at 115, 118. That is to say, the
residual clause exempts only workers who are strictly
analogous to seamen and railroad employees, a
category of employees the Court described as
“transportation workers.” Id. at 121.
This Court has twice construed the Section 1
exemption—in Circuit City and New Prime—but it
has not yet explained which types of workers qualify.
In Circuit City, the Court clarified the exemption’s
narrow application to “transportation workers.” Id. at
118. In New Prime, the Court explained that the
exemption applies to contracts between employers
and independent contractors, but it did not have the
opportunity to define a transportation worker. See
New Prime, 139 S. Ct. at 539 (“Happily, everyone
before us agrees that Mr. Oliveira qualifies as a
worker engaged in interstate commerce.”). As the
Seventh Circuit’s decision in Saxon illustrates, this
hole in the Court’s jurisprudence has led to
considerable confusion.

10
B.

Facts and Procedural History

Southwest Airlines Co. is America’s largest
passenger airline, operating in more than 100 cities
across the country. Ms. Saxon is a Ramp Agent
Supervisor for Southwest at Chicago’s Midway
Airport. App, infra, 2a-3a. She supervises, trains, and
assists a team of Ramp Agents who load and unload
passenger baggage from airplanes, and according to
an affidavit she filed in the district court, she handles
baggage on occasion. Id. She does not physically
transport goods, supervise others who physically
transport goods, or direct where goods should be
transported. Id. at 36a (finding “Plaintiff does not
herself transport anything”). She does not transport
cargo across state lines, or even locally. Id. at 39a
(“Plaintiff herself does not transport cargo at all (even
intrastate)…”). At most, she sometimes loads and
unloads baggage and supervises others who do the
same. Id. at 38a.
Ms. Saxon and Southwest entered into an
agreement to arbitrate wage disputes arising out of
her employment. Id. at 3a. Despite that agreement,
Ms. Saxon filed a putative collective action against
Southwest under the Fair Labor Standards Act,
arguing she need not honor her arbitration agreement
because she is a “member of a class of workers
engaged in foreign or interstate commerce” and
exempted by Section 1 of the FAA. Id.
After Ms. Saxon filed her putative collective
action, Southwest moved to dismiss the suit in favor

11
of arbitration. Id. at 26a. Ms. Saxon argued that she
is a transportation worker exempt from arbitration
under the FAA because she is responsible for loading
and unloading goods for transportation. Id. at 29a.
Southwest countered that she falls outside the
Section 1 exemption because she does not personally
move goods across state lines or manage those who do.
Id. at 29a-30a. Provisions in the collective bargaining
agreement restrict her ability to load and unload
goods, which she may do on only a minimal basis. Id.
at 23a-24a (explaining that Ms. Saxon’s duties as a
Ramp Agent Supervisor are restricted pursuant to a
collective bargaining agreement with Southwest that
limits her ability to perform Ramp Agent duties,
including loading and unloading baggage).
The district court agreed with Southwest. After
acknowledging a divergence among the federal courts,
the district court held that “the linchpin for
classification as a transportation worker … is actual
transportation, not merely handling goods.” Id. at
37a. The court drew a distinction between
“nonexempt workers who handle goods in service of
transportation (warehousemen, stevedores, and
porters)” and “exempt workers who actually transport
[goods] by navigating the channels of interstate
commerce (truckers, seamen, and railroadsmen,
respectively).” Id. at 38a. After finding that Ms. Saxon
“did not physically transport goods at all, let alone
out-of-state,” the court held that she does not qualify
for the exemption. Id. at 39a. The court noted the
“growing consensus that handlers are not

12
transportation workers” and explained that such an
interpretation was consistent with the “federal policy
favoring arbitration agreements.” Id. at 39a-40a
(cleaned up).
Ms. Saxon appealed, and the Seventh Circuit
reversed. Id. at 2a. The court explained that a
worker’s exemption under Section 1 hinges on
“whether the interstate movement of goods is a
central part of the class members’ job description.” Id.
at 9a (citing Wallace, 970 F.3d at 801). In answering
that question, the court found that any performance
of “[l]oading and unloading cargo onto a vehicle so
that it may be moved interstate… is actual
transportation,” even if the worker does not actually
transport the goods. Id. at 10a. Further, the court
determined that “[t]he act of loading cargo onto a
vehicle to be transported interstate is itself
commerce,” explaining that “cargo-loading work is
interstate or foreign commerce.” Id. at 2a, 10a. As
such, the court held that “cargo loaders generally are
a class of workers engaged in the actual
transportation of goods,” and supervisors who
occasionally load and unload passenger baggage “in
turn, are airplane cargo loaders and members of that
class, and thus engaged in commerce for purposes of
§ 1.” Id. at 12a.
The Seventh Circuit denied Southwest’s
request to stay issuance of the mandate pending the
filing of a petition for certiorari with the Court. This
petition followed.

13

REASONS FOR GRANTING THE PETITION
There are three reasons the Court should
immediately review the Seventh Circuit’s decision.
First, the Seventh Circuit’s decision in Saxon creates
a clear split with the Fifth Circuit regarding identical
workers, and it highlights deep confusion among the
Circuit courts over who qualifies as an exempt
transportation worker under Section 1 of the FAA.
Second, the Seventh Circuit’s decision is inconsistent
with this Court’s existing precedent interpreting the
FAA and limiting the Section 1 exemption to those
workers who actively move goods in interstate
commerce. Third, the split created by the Seventh
Circuit’s decision undermines national uniformity in
resolving workplace disputes by frustrating the FAA’s
liberal federal policy enforcing arbitration and
misunderstanding the purposes of other federal
dispute resolution regimes, such as the RLA.
A.

Saxon Deepens the Divide Among
the Circuits Over Who Qualifies As
a “Transportation Worker.”
1.

Saxon Created a Clear Split
with Eastus.

Saxon and Eastus share nearly identical facts.
Ms. Saxon, as noted, is a Ramp Agent Supervisor. Her
primary job is to oversee Ramp Agents who load and

14
unload baggage onto airplanes; she also testified in
the district court that she occasionally performs that
work herself (though Southwest contests this, and the
collective bargaining agreement applicable to
Southwest Ramp Agents restricts her ability to do so).
The Eastus plaintiff had a very similar job: she was a
ticketing agent supervisor for Lufthansa at the
George Bush Intercontinental Airport in Houston.
Her primary job duty, like Ms. Saxon, was
supervising agents who handled passenger baggage
at the gate; she also sometimes performed that work
herself. Eastus, 960 F.3d at 212. Both plaintiffs had
signed binding arbitration agreements as a condition
of their employment, but both sued their employers in
federal court.
Both airlines moved to compel
arbitration; both plaintiffs opposed, arguing that they
were exempt from the FAA under Section 1. Yet the
Fifth and Seventh Circuits resolved these two
identical cases in opposite ways.
The Fifth Circuit held that the supervisor was
not a transportation worker under Circuit City and
therefore did not fit within the Section 1 exemption.
Id. at 207. The court held that “loading and unloading
airplanes” with passengers and goods does not trigger
the exemption because workers who perform such
activities are not “engaged in an aircraft’s actual
movement in interstate commerce.” Id. at 212. In
reaching its decision, the court explained that the
“key question” turns on the type of work that the
worker was hired to perform. Id. at 209. In answering
this question, the Fifth Circuit analyzed whether the

15
worker’s “job required her to engage in the movement
of goods in interstate commerce” or engage in the
“aircraft’s actual movement in interstate commerce.”
Id. at 210, 212 (internal citation omitted). The court
held the supervisor’s occasional handling of passenger
baggage “could at most be construed as loading and
unloading airplanes.” Id. at 212. Ultimately, the Fifth
Circuit determined that “[l]oading or unloading a
[vehicle] with goods prepares the goods for or removes
them from transportation” but is not itself
transportation. Id. Because the supervisor was not
actually engaged in moving goods in interstate
commerce, the exemption did not apply to her. Id.
Less than a year later, the Seventh Circuit
reached the exact opposite conclusion by deciding that
Ms. Saxon is a transportation worker under Circuit
City and therefore is exempt from the FAA. See App.,
infra, 1a-21a. Noting “the lack of guiding authority”
from this Court, the Seventh Circuit’s holding is
broad enough to include as a transportation worker
any employee who occasionally loads or unloads
goods, or the supervisor of that employee, regardless
of whether she is actually engaged in transporting
those goods interstate. Id. at 7a. According to the
Seventh Circuit, “[t]he act of loading cargo onto a
vehicle to be transported interstate is itself
commerce,” and any performance of “[l]oading and
unloading cargo onto a vehicle so that it may be
moved interstate… is actual transportation.” Id. at
2a, 10a. In direct conflict with Eastus, the Seventh
Circuit explained that “cargo-loading work is

16
interstate or foreign commerce,” and “cargo loaders
generally are a class of workers engaged in the actual
transportation of goods.” Id. at 10a, 12a. Further, the
court held that supervisors who occasionally load and
unload passenger baggage “in turn, are airplane cargo
loaders and members of that class, and thus engaged
in commerce.” Id. at 12a.
The striking disparity between the outcomes in
Saxon and Eastus—in which the exact same type of
worker was found exempt by one court and not
exempt by the other—is remarkable. Without the
Court’s intervention, these two Circuits (inevitably
joined by others on either side) will continue to
produce irreconcilable results that further deepen
this Circuit split.
2.

Saxon Exacerbates Existing
Confusion Among the
Circuits.

Saxon exacerbates existing disagreement
among the Circuit courts over what type of worker
qualifies as a transportation worker under Circuit
City. There are a few types of workers the courts
largely agree are exempt. Interstate truck drivers, for
example, who physically transport goods across state
lines, are generally recognized as transportation
workers. See, e.g., Wallace, 970 F.3d at 802
(describing interstate truckers as “easy” to identify as
transportation workers); New Prime, 139 S. Ct. at 539
(observing that interstate truckers plainly fit within
the exemption); Int’l Bhd. of Teamsters Local Union

17
No. 50 v. Kienstra Precast, LLC, 702 F.3d 954, 956
(7th Cir. 2012) (holding that cement truck drivers
were part of the class of interstate truckers because
they hauled deliveries across state lines); but see Hill
v. Rent-A-Center, Inc., 398 F.3d 1286, 1288-90 (11th
Cir. 2005) (holding that a furniture salesperson who
occasionally delivered furniture to out-of-state
customers was not exempt because delivery was
incidental to sale). Other types of workers, however,
present a more difficult determination.
The First and Ninth Circuits have recently
held that so-called “last-mile” delivery drivers who
make intrastate delivery of goods traveling interstate,
but play no part in transporting those goods across
state lines, are transportation workers. In Rittmann,
the Ninth Circuit explained that last-mile drivers
complete the final leg of a good’s continuous interstate
journey, and their primary job is completing the
interstate deliveries of goods sold within the channels
of commerce. See 971 F.3d at 917-18 (finding that
“Amazon’s business includes not just the selling of
goods, but also the delivery of those goods.”).
According to the Ninth Circuit, “[t]he interstate
transactions between Amazon and the customer do
not conclude until the packages reach their intended
destinations.” Id. at 916. The final deliveries of the
goods, then, are “indisputably part of the stream of
commerce,” to which the exemption applies. Id.; see
also Romero, 2021 WL 3671380 at *3 (applying
Rittman and affirming “that delivery drivers who are
engaged in the movement of goods in interstate

18
commerce fall within the FAA’s transportation
worker exemption, even if the drivers themselves do
not cross state lines” (internal citation omitted)). In
Waithaka, the First Circuit came to the same
conclusion, finding “the exemption encompasses the
contracts of transportation workers who transport
goods or people within the flow of interstate
commerce, not simply those who physically cross state
lines in the course of their work.” 966 F.3d at 13
(emphasis added).
However, the Seventh and Ninth Circuits have
declined to extend the exemption to rideshare and
local food delivery drivers, even if the people or goods
being transported have crossed state lines. In
Capriole, the Ninth Circuit “join[ed] the growing
majority of courts holding that Uber drivers as a class
of workers do not fall within the interstate commerce
exemption from the FAA.” 2021 WL 3282092 at *5
(internal citation omitted). The court explained that
rideshare drivers, even those who occasionally cross
state lines, “are not engaged in interstate commerce
because their work predominantly entails intrastate
trips.” Id. at *8 (rideshare drivers are not exempt
“even though some Uber drivers undoubtedly cross
state lines in the course of their work”). The court
relied on its earlier decision in In re Grice, which
expressly rejected the argument that the exemption
covers all “workers who, like [the Uber driver],
provide transportation services to persons or goods
traveling across state lines,” because that
interpretation would sweep in all sorts of workers

19
who are not actually engaged in interstate commerce.
974 F.3d at 958. Likewise, the Seventh Circuit in
Wallace declined to extend the exemption to local food
delivery drivers who deliver food that may have, at
some point, shipped internationally or across state
lines. See 970 F.3d at 802.
For years, there has been confusion over
whether to extend the exemption to workers who
merely handle goods, including those who load and
unload goods at a central location. See App., infra,
36a-38a (collecting cases). Prior to Circuit City, the
Sixth and Eleventh Circuits held that postal workers
as a class are exempt from the FAA, even if the
worker merely handles (as opposed to transports)
mail. See Bacashihua v. U.S. Postal Service, 859 F.2d
402, 405 (6th Cir. 1988); see also Am. Postal Workers
Union, AFL-CIO v. U.S. Postal Service, 823 F.2d 466,
473 (11th Cir. 1987). Neither case analyzed the
exemption
under
the
transportation-worker
framework required by the Court’s holding in Circuit
City, and both decisions have since been called into
doubt. See, e.g., Rittman v. Amazon.com, Inc., 383 F.
Supp. 3d 1196, 1201 (W.D. Wash. 2019) (suggesting
that after Circuit City, the postal cases are most
applicable to postal workers who actually transport
packages). More recent decisions reflect the
understanding that workers who handle goods
shipped in interstate commerce but do not actually
transport the goods themselves are not exempt. See
Furlough v. Capstone Logistics, LLC, No. 18-cv02990-SVK, 2019 WL 2076723, at *7 (N.D. Cal. May

20
10, 2019) (holding that warehouse worker whose job
duties included “loading, unloading, and handling
freight” was not a transportation worker); see also
Kropfelder v. Snap-On Tools Corp., 859 F. Supp. 952,
958-59 (D. Md. 1994) (finding that warehouse workers
who load and unload trucks used to deliver goods in
interstate commerce are not exempt). This “trend in
the case law reflects a growing consensus” that
workers who merely handle goods are not exempt
transportation workers. App., infra, 39a; see also id.
at 37a (finding “the linchpin for classification as a
transportation worker under Circuit City is actual
transportation, not merely handling goods”). Saxon
ends this trend, guiding courts instead in the opposite
direction.
Notably, some courts have already considered
whether managers or supervisors of workers who
transport goods fall under the exemption. In Palcko v.
Airborne Express, Inc., 372 F.3d 588 (3d Cir. 2004),
the Third Circuit explained that supervisors
generally are not exempt, but recognized an exception
for managers who directly supervise truckers
delivering goods interstate. See id. at 592-93. In
recognizing this exception, the Third Circuit did not
intend to create a “slippery slope” that would “lead to
the exemption of all management employees,”
explaining the plaintiff in that case “was a direct
supervisor of [truck] drivers that transported
packages” and it was “her particular relations to the
channels of interstate commerce” that made her a
transportation worker. See id. at 594 n.2 (internal

21
citation omitted). The court explicitly limited its
holding to exclude warehouse managers who load and
unload goods (and are virtually identical to Ms.
Saxon) because they do not direct the interstate
shipment of goods or manipulate the channels of
commerce themselves. Id.; accord Eastus, 960 F.3d at
207 (supervisor of ticketing agents was not exempt
from FAA because she did not actually transport
goods or direct aircraft’s actual movement in
interstate commerce). The Third Circuit’s carefully
delineated exception for direct managers is
meaningless in light of Saxon; the Seventh Circuit
failed to apply any of the same limiting principles to
cargo loader supervisors, choosing instead to embark
down the slippery slope.
Before Saxon, the First and Ninth Circuits’
decisions exempting last-mile drivers represented the
outer bounds of Section 1 jurisprudence. The Seventh
Circuit’s decision in Saxon, which applies to “cargo
loaders generally,” pushes beyond that previous limit
and compounds existing confusion among the
Circuits, particularly in hard-to-determine cases.
Even amidst confusion, the Circuit courts had
previously agreed that a transportation worker must
perform some transportation herself, even if purely
intrastate. The Seventh Circuit’s holding in Saxon
upends this shared assumption and disrupts much of
the courts’ various approaches by exempting a broad
class of workers who do not actually transport
anything, even intrastate, but merely oversee those
who prepare goods for travel and occasionally prepare

22
those goods themselves. Absent the Court’s review,
Circuit confusion will only multiply.
B.

Saxon Conflicts with This Court’s
Existing Precedent Interpreting the
FAA and Limiting the Section 1
Exemption to Those Workers Who
Have an Active Role in Moving
Goods Across State Lines.

As this Court recognizes, the FAA “establishes
a liberal federal policy favoring arbitration
agreements.” Epic Sys., 138 S. Ct. at 1621 (citing
Moses H. Cone Mem. Hosp. v. Mercury Constr. Corp.,
460 U.S. 1, 24 (1983)) (internal quotations omitted).
Further, the Court has acknowledged that the FAA’s
reach is expansive, and it covers nearly all arbitration
agreements. See Allied-Bruce Terminix Co., Inc. v.
Dobson, 513 U.S. 265, 274 (1995) (describing “the
[FAA’s] reach expansively as coinciding with that of
the Commerce Clause”); see also Epic Sys., 138 S. Ct.
at 1621. Specifically, the FAA’s coverage includes
employment claims where the parties “contracted for
arbitration..., specif[ied] the rules that would govern
their arbitrations, [and] indicat[ed] their intention to
use individualized rather than class or collective
action procedures.” Epic Sys., 138 S. Ct. at 1621. As
the Court has explained, “this much the [FAA] seems
to protect pretty absolutely.” Id. (citing AT&T
Mobility LLC v. Concepcion, 563 U.S. 333 (2011)).
Yet the Court has noted that Congress drafted
the FAA “in response to a perception that courts were

23
unduly hostile to arbitration.” Id. In enacting the
FAA, “Congress directed courts to abandon their
hostility and instead treat arbitration agreements as
valid, irrevocable, and enforceable.” Id. (internal
citation omitted). In doing so, Congress demonstrated
that “arbitration had more to offer than courts
recognized—not least the promise of quicker, more
informal, and often cheaper resolutions for everyone
involved.” Id. Thus, the FAA “requires courts
‘rigorously’ to ‘enforce arbitration agreements
according to their terms.’” Id. (citing Am. Express Co.
v. Italian Colors Rest., 570 U.S. 228, 233 (2013)); see
also id. at 1620 (“[T]he [FAA] generally requires
courts to enforce arbitration agreements as written.”).
Because the FAA is a statute seeking to
promote arbitration agreements and overcome
judicial hostility to arbitration, this Court has
“afforded a narrow construction” to the Section 1
exemption. Circuit City, 532 U.S. at 118. Accordingly,
the Court limits the narrow exemption to workers
who take an “active” role in the movement of goods
across state lines. Id. at 115-16. Nonetheless, the
Seventh Circuit erred by giving the provision a
broader reading than is supported by the ordinary
meaning of the statutory language in light of the
statutory structure.
The error arose, in part, because of the Seventh
Circuit’s misapplication of the ejusdem generis canon.
This Court has previously held that the canon is
instructive in understanding the residual clause of

24
the Section 1 exemption. Id. at 114-115. Put
succinctly, the canon holds that where general words
(“any other class of workers,” in this case) follow an
enumeration of two or more specific things (here,
“seamen” and “railroad workers”), the “general words
are construed to embrace only objects similar in
nature to those objects enumerated by the preceding
specific words.” Id.
In Circuit City, this Court held that the
common characteristic of the “specific” examples in
Section 1 was that they were “engaged in”
transportation. Id. at 121. This was “rational,” the
Court wrote, because Congress may have intended “to
ensure that workers in general would be covered by
the provisions of the FAA, while reserving for itself
more specific legislation for” transportation workers.
Id.
Indeed, as the Court later observed in New
Prime, “[b]y the time it adopted the [FAA] in 1925,
Congress had already prescribed alternative
employment dispute resolution regimes for many
transportation workers. And it seems Congress did
not wish to unsettle those arrangements in favor of
whatever arbitration procedures the parties’ private
contracts might happen to contemplate.”1 139 S. Ct.
at 537 (internal citations omitted).

For example, at the same time Congress was considering the
FAA, railway executives and union leaders were drafting what
would become the RLA, which (as enacted in 1926) requires
1

25
In Saxon, the Seventh Circuit explained that
its “analysis rest[ed] on the premise that the common
characteristics of seamen and railroad employees, for
ejusdem generis purposes, is their relationship with
interstate or foreign commerce.” App., infra, 20a
(emphasis added). If the residual clause applies to
anyone related to interstate commerce—words not
actually found in the exemption or in this Court’s
precedent—it potentially applies to any worker
performing any job in the country; an extraordinary
result that this Court has previously rejected.
Indeed, it is hard to imagine a more expansive
definition of a transportation worker than the one
adopted by the Seventh Circuit. In the court’s view,
handling passengers’ personal effects along an
interstate journey—even on a limited basis—is
enough to make a class of people interstate
transportation workers. Nothing material separates
Ramp Agents and Supervisors from many other
classes of employees who work in or around an
airport. For example, curbside agents take luggage
from arriving passengers and start the luggage on its
railway workers and their employers to arbitrate rates of pay
and working conditions. See 45 U.S.C. § 152. Similarly, by 1925,
seamen were organized and had a distinct form of arbitration
under the Shipping Commissioners Act of 1872. In fact, at the
time of the RLA’s inception, the president of the International
Seamen’s Union lobbied to exempt seamen from the FAA so as
not to disrupt established dispute resolution processes. Matthew
W. Finkin, Workers’ Contracts under the United States
Arbitration Act: An Essay in Historical Clarification, 17
Berkeley J. Emp. & Lab. L. 282, 284-85 (1996).

26
journey to the plane. Ticket agents take passengers’
luggage and place it on a conveyor belt. Security
agents take passengers’ luggage, inspect it, and
return it to passengers. Are all of these types of
employees exempt transportation workers?
The Seventh Circuit’s interpretation, which
includes people who do not transport anything
themselves, creates a line drawing problem.
Regardless of where that line is drawn, it is too far in
light of this Court’s narrow application of Section 1.
C.

The Circuit Split Created by Saxon
Undermines National Uniformity in
Resolving Workplace Disputes.
1.

The Circuit Split Encourages
Inconsistency Among the
Circuits in Enforcing
Arbitration Agreements.

Arbitration agreements are commonplace
among workers in the transportation industry to
reduce “costs and delay through litigation,” as
Congress intended. Allied-Bruce, 513 U.S. at 274. In
Concepcion, this Court warned that fundamentally
changing the traditional arbitration process (for
example, from bilateral to class arbitration)
“sacrifices the principal advantage of arbitration—its
informality—and makes the process slower, more
costly, and more likely to generate procedural morass
than final judgment.” Concepcion, 563 U.S. at 347-48;
see also Epic Sys., 138 S. Ct. at 1623 (confirming the

27
same). Additionally, this Court has noted that
permitting class action mechanisms—even in
arbitration—“would take much time and effort, and
introduce new risks and costs for both sides.” Epic
Sys., 138 S. Ct. at 1623. Ultimately, the value that
Congress recognized in the arbitration process when
enacting the FAA—“its speed and simplicity and
inexpensiveness”—would disappear and “arbitration
would wind up looking like the litigation it was meant
to displace.” Id.
The uniform enforceability of arbitration
agreements is of profound legal and commercial
significance, with sweeping implications for
employer-employee relations, as well as the judicial
system as a whole. (The proper enforcement of
arbitration procedures is, in part, why this Court has
granted certiorari in 15 cases involving the FAA since
2011.) Yet the Circuit split created by Saxon is exactly
the result this Court warned against in Concepcion.
The split discourages the uniform enforcement of
individual arbitration, and it allows workers in
certain jurisdictions who agreed to individually
arbitrate disputes to instead pursue class and
collective action litigation—exactly what individual
arbitration was “meant to displace.” Id. In this way,
Saxon has entirely undermined the FAA’s key
purpose—uniform enforceability—by splitting from
the Fifth Circuit and providing a path other courts
may follow to broadly interpret Section 1,
disregarding this Court’s existing precedent. See
supra, pp. 22-26.

28
As a result, Southwest and other employers in
the transportation industry will experience a
logistical nightmare and substantially increased
litigation expenses. Southwest has implemented an
arbitration agreement through its Alternative
Dispute Resolution Program (the “ADR Program”) to
resolve employee disputes nationwide quickly and
efficiently. The ADR Program applies to more than
14,000 current and former, non-union employees in
the United States. Southwest operates in more than
100 cities across the country, which themselves are
located within every federal circuit. In the Fifth and
Seventh Circuits alone, Southwest has non-union
employees at thirteen and four locations, respectively.
The vast majority of these non-union employees, like
Ms. Saxon, entered into an individual arbitration
agreement with Southwest via the uniform ADR
Program. After Saxon, Southwest will be embroiled
in constant contract litigation with its own employees,
as it seeks to enforce these mutual arbitration
agreements on a Circuit-by-Circuit, state-by-state,
worker-by-worker basis, likely with widely varied
results.2
There is also the added uncertainty of each state’s laws, which
vary with respect to arbitration agreement enforcement. See
Richard C. Reuben, Public Justice: Toward A State Action
Theory of Alternative Dispute Resolution, 85 Calif. L. Rev. 577,
596 (1997) (noting that all fifty states and the District of
Columbia have enacted arbitration statutes); Brian Farkas, The
Continuing Voice of Dissent: Justice Thomas and The Federal
Arbitration Act, 22 Harv. Negot. L. Rev. 33, 41-42 (2016)
(“[M]any states… have enacted twists on [arbitration] statutes
2

29
Virtually every other company that operates
nationally will be impacted, too. Like Southwest,
other national companies now face uncertainty and
unpredictability in their relationships with
employees, as well as a nationwide class litigation
problem. Suddenly, workers who would otherwise be
subject to individual arbitration will attempt to avoid
the agreements they voluntarily signed, seeking
instead to bring class and collective action claims in
courts around the country.
Such claims will
undoubtedly generate excessive and lengthy litigation
regarding whether these workers fall within the
Seventh Circuit’s broadly expanded transportationworker definition. These claims may also create labor
unrest, as companies will lack the ability to treat
employees equally with respect to arbitration, even at
the same work location.
The lower courts have “made a labyrinth and
got lost in it,” McDermott Int’l, Inc. v. Wilander, 498
U.S. 337, 353 (1991), and unless this Court can find a
way out, the resulting patchwork jurisprudence will
inhibit any employer’s attempt to build a functional
nationwide alternative dispute resolution program.3
with the more restrictive requirements for arbitration
agreements and proceedings.”).
3 Of course, there are other unintended consequences as well.
The Seventh Circuit’s expanded definition of a transportation
worker will give broader effect to state law, a fact that the
Seventh Circuit recognized. App., infra, 20a-21a (“Saxon could
still face arbitration under state law.”). Moreover, the split could
lead to forum shopping and complicated legal questions where,

30
This Court alone has authority to resolve lower court
confusion stemming from its own prior ruling.
Without the Court’s guidance, lower courts will
continue to misapply the Section 1 exemption in
conflicting ways that only serve to undermine the
consistent application of the FAA.
2.

The Circuit Split Frustrates
the Complementary Purposes
of the FAA and the RLA.

The RLA was enacted in 1926 and extended to
air carriers in 1936. See Hawaiian Airlines, Inc. v.
Norris, 512 U.S. 246, 248 (1994). Congress intended
the RLA to “promote stability in labor-management
relations by providing a comprehensive framework
for resolving labor disputes.” Id. at 252; Bhd. of
Locomotive Eng'rs and Trainmen v. Union Pac. R.R.
Co., 879 F.3d 754, 755 (7th Cir. 2017) (Because “[n]o
one wants to see the nation's transportation network
brought to a standstill,” the RLA was “designed to
substitute bargaining, mediation, and arbitration for
strikes.”).
The stated purpose of the RLA is to “avoid any
interruption to commerce or to the operation of any
carrier engaged therein.” 45 U.S.C. § 151a. To that
end, the RLA “sets up a mandatory arbitral
mechanism to handle disputes growing out of
grievances or out of the interpretation or application
like with Saxon’s claims, plaintiffs purport to bring nationwide
collective action claims involving employees in multiple Circuits.

31
of agreements concerning rates of pay, rules, or
working conditions.” Hawaiian Airlines, 512 U.S. at
248 (internal citation omitted); see also 45 U.S.C. §
152. In view of this important purpose, the RLA
contains a “strong preference for arbitration, as
opposed to judicial resolution of disputes.” Union
Pac., 879 F.3d at 755.
The RLA is thus crucial to interstate commerce
and the country’s transportation network. It also
complements the FAA’s liberal policy of enforcing
arbitration agreements, and the two should be read
consistently. As the Court has cautioned, the general
rule is to aim for harmony in statutory interpretation.
See Epic Sys., 138 S. Ct. at 1624. Applying this
concept, federal courts should not interpret the FAA
in a manner that conflicts with other federal
statutes—here, the RLA. Id. (“When confronted with
two Acts of Congress allegedly touching on the same
topic, this Court is not at liberty to pick and choose
among congressional enactments…”) (internal
citation omitted). As this Court has recognized,
“allowing judges to pick and choose between statutes
risks transforming them from expounders of what the
law is into policymakers choosing what the law
should be.” Id.
Under the RLA, employers such as Southwest
are required to mediate and arbitrate wage disputes
involving union-represented employees, without
exception. 45 U.S.C. § 152. Lacking an analogous
provision applicable to non-union or management

32
employees such as Ms. Saxon, Southwest has
achieved stability in its relationship with such
employees by entering into individual arbitration
agreements. Saxon upends Southwest’s purposeful
alternative dispute resolution structure, requiring it
to treat non-union workers differently, and fomenting
claims of unequal application and enforcement among
such workers. Further, it is inconsistent to require a
carrier such as Southwest to have a uniform set of
arbitration procedures for one class of employees
under the RLA, while prohibiting it from using
arbitration procedures with other, ill-defined classes
of employees under the FAA.
Without this Court’s review, the Seventh
Circuit’s decision in Saxon will impermissibly allow
the narrow exemption provided in Section 1 of the
FAA to subsume the key purpose of requiring airlines
to engage in alternative dispute resolution under the
RLA,
potentially
disrupting
the
nation’s
transportation network due to resulting labor unrest.

CONCLUSION
The Court should take this opportunity to
clarify what it meant in Circuit City by explaining
who is a transportation worker under the FAA’s
Section 1 exemption rather than allow the split
created by the Seventh Circuit’s decision in Saxon to

33
deepen. Accordingly, the Court should grant the
petition for a writ of certiorari.
Respectfully submitted,
SCOTT A. CHESIN
SHOOK, HARDY
& BACON L.L.P.
1325 Avenue of the
Americas,
28th Floor
New York, N.Y. 10019
(212) 779-6016
schesin@shb.com
CHRISTOPHER R.
WRAY
SHOOK, HARDY
& BACON L.L.P.
2555 Grand Blvd.
Kansas City, Mo.
64108
(816) 559-2014
cwray@shb.com
August 27, 2021

MELISSA A. SIEBERT
Counsel of Record
SHOOK, HARDY
& BACON L.L.P.
111 South Wacker Drive,
Suite 4700
Chicago, Ill. 60606
Tel: (312) 704-7700
Fax: (312) 558-1195
masiebert@shb.com
KATELAND R.
JACKSON
SHOOK, HARDY
& BACON L.L.P.
1800 K Street, NW,
Suite 1000
Washington, D.C. 20006
(202) 662-4852
krjackson@shb.com

APPENDIX

1a
APPENDIX A
No. 19-3226
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
_______________
LATRICE SAXON, Petitioners,
v.
SOUTHWEST AIRLINES CO.,
Respondents.
_______________
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 19-cv-0403 -- Robert M. Dow, Jr., Judge.
_______________
ARGUED MARCH 3, 2021 -- DECIDED MARCH
31, 2021
_______________
Before MANION, WOOD, and ST.
EVE, Circuit Judges

2a
ST. EVE, Circuit Judge. The Federal
Arbitration Act has, since 1925, established a federal
policy favoring arbitration. But every policy has its
limits. One of the limits Congress placed on the
Arbitration Act is an exemption for “contracts of
employment of seamen, railroad employees, or any
other class of workers engaged in foreign or interstate
commerce.” 9 U.S.C. § 1. The Supreme Court and the
ejusdem generis canon of statutory construction tell
us that the last category refers not to all contracts of
employment, but only those belonging to
“transportation workers.” Beyond the two examples
the statute provides—seamen and railroad
employees—deciding
who
qualifies
as
a
transportation worker is not always an easy task.
Latrice Saxon is a ramp supervisor who
manages and assists workers loading and unloading
airplane cargo for Southwest Airlines Company. After
she brought a lawsuit against her employer,
Southwest invoked the Arbitration Act. Saxon
asserted that she was an exempt transportation
worker, but the district court found her work too
removed from interstate commerce and dismissed the
case.
We reverse. The act of loading cargo onto a
vehicle to be transported interstate is itself
commerce, as that term was understood at the time of
the Arbitration Act’s enactment in 1925. Airplane
cargo loaders, as a class, are engaged in that
commerce, in much the way that seamen and railroad
employees were, and Saxon and the ramp supervisors
are members of that class. It therefore follows that

3a
they are transportation workers whose contracts of
employment are exempted from the Arbitration Act.
I.
As a ramp supervisor at Chicago Midway
International Airport, Saxon supervises, trains, and
assists a team of ramp agents—Southwest employees
who physically load and unload planes with
passenger and commercial cargo. Ostensibly her job
is meant to be purely supervisory, but Saxon’s uncontroverted declaration asserts that she and the other
ramp supervisors at Midway frequently fill in as ramp
agents when they are short on workers. Though the
ramp agents are covered by a collective bargaining
agreement, supervisors like Saxon are excluded. She,
like other excluded Southwest employees, agreed
annually as part of her contract of employment—not
separately—to arbitrate wage disputes.
Believing that Southwest failed to pay ramp
supervisors for overtime work, Saxon nevertheless
filed a putative collective action against Southwest
under the Fair Labor Standards Act, 29 U.S.C. §§ 201219. Southwest moved to stay the suit pending
arbitration, see 9 U.S.C. § 3, or to dismiss it for
improper venue in light of Saxon’s arbitration
agreement, Fed. R. Civ. P. 12(b)(3); Cont’l Cas. Co. v.
Am. Nat. Ins. Co., 417 F.3d 727, 733 (7th Cir. 2005).
Saxon responded that the Arbitration Act did not
apply because she was a member of a “class of workers
engaged in foreign or interstate commerce,” and
therefore exempted by § 1 of the Arbitration Act.

4a
In Circuit City Stores v. Adams, 532 U.S. 105,
119 (2001), the Supreme Court held that the
exemption in § 1 applies only to “transportation
workers.” Relying on Lenz v. Yellow Transportation,
Inc., 431 F.3d 348, 352 (8th Cir. 2005), Saxon
maintained that she was a transportation worker
because Southwest was a transportation company,
and she was responsible for loading and unloading
goods for transportation. Southwest replied that
Saxon fell outside the exemption because she did not
personally move goods across state lines or manage
those who do.
The district court agreed with Southwest.
Surveying the limited caselaw, the court determined
that the “linchpin” of the transportation-worker
definition was “actual transportation, not merely
handling goods .... at one end or the other” of a
network. In support, it highlighted the exclusion for
seamen— a term which it understood not to cover the
longshoreman who loaded and unloaded ships—and
ex-tended that logic to warehousemen, stevedores,
porters, and to Saxon’s analogous role as a ramp
supervisor. Saxon appealed.
II.
We recently considered the framework of the
Arbitration Act and the § 1 exemption in Wallace v.
Grubhub Holdings, Inc., 970 F.3d 798 (7th Cir. 2020).
Congress passed the Act in 1925 in response to the
general “hostility of American courts to the
enforcement of arbitration agreements” and “sought
to replace that ‘widespread judicial hostility’ with a
‘liberal federal policy favoring arbitration.’” Id. at 799-

5a
800 (citing AT&T Mobility LLC v. Concepcion, 563
U.S. 333, 339 (2011)). Section 1 of the Act represents
an outer limit on Congress’s favor toward arbitration.
See New Prime Inc. v. Oliveira, 139 S. Ct. 532, 543
(2019). It provides that “nothing” in the Act shall
apply to “contracts of employment” for “seamen,”
“railroad employees,” and a third, residual category,
“any other class of workers engaged in foreign or
interstate commerce.” 9 U.S.C. § 1; Wallace, 970 F.3d
at 799.
The parties do not dispute that Saxon’s
arbitration agreement is a contract of employment
but only whether Saxon is one of the workers
exempted. Like the plaintiff in Wallace, Saxon does
not claim to be a seaman or railroad employee and
argues only that she fits in the residual category.
To understand the scope of that category, we
explained in Wallace, “our inquiry ‘begins with the
text.’” 970 F.3d at 800 (citing Ross v. Blake, 136 S. Ct.
1850, 1856 (2016)). We interpret the words of that
text based on their “ordinary ... meaning ... at the time
Congress enacted the statute.” New Prime, 139 S. Ct.
at 539 (quoting Wis. Cent. Ltd v. United States, 138 S.
Ct. 2067,2074 (2018)).
The first textual clue is the phrase “class of
workers,” which obligates us to focus on the broader
occupation, not the individual worker. Wallace, 970
F.3d at 800. We therefore ask not whether Saxon is
engaged in commerce, but whether a given class of
workers is engaged in commerce and whether Saxon
is a member of that class. Id. at 802.

6a
The second clue is the two enumerated
categories of seamen and railroad employees, which
provide a gloss on what it means for a class of workers
to be “engaged in commerce.” Id. at 801. Standing
alone, the phrase “engaged in commerce” is a term of
art with a narrower scope than similar formulations
like “involving commerce” or “affecting commerce,”
though its precise breadth often depends on
“statutory context.” Circuit City, 532 U.S. at 115-18.
Under the ejusdem generis canon of construction,
general words are interpreted to reflect the “common
characteristics” of the enumerated categories that
precede them. Ctr. Video Indus. Co. v. Roadway
Package Sys., Inc., 90 F.3d 185,187-88 (7th Cir. 1996);
see Antonin Scalia & Bryan A. Garner, Reading Law:
The Interpretation of Legal Texts 199 (2012). In
Circuit City, the Supreme Court used this canon to
reject the argument that § 1 exempted all
employment contracts. 542 U.S. at 114-15. Instead,
the court limited the scope of the residual category to
“transportation workers,” id. at 119, those who are
“akin to ‘seamen’ and ‘railroad employees,’” Wallace,
970 F.3d at 801. To be engaged in commerce for
purposes of § 1, then, is to “perform[] work analogous
to that of seamen and railroad employees, whose
occupations are centered on the transport of goods in
interstate and foreign commerce.” Id. at 802.
III.
Saxon argues on appeal that ramp supervisors,
and cargo loaders more broadly, are transportation
workers within the original meaning of § 1 at the time
it was enacted in 1925. Almost a century ago, she

7a
insists, those who loaded cargo for interstate
transport were recognized to be engaged in commerce.
She also draws parallels between her job loading
cargo as a ramp supervisor and the 1925 definitions
of seamen and railroad employees, which in her view
covered boat and train cargo loaders.
A.
Southwest first raises a threshold objection to
Saxon’s argument: she never made it in the district
court. She urged the district court only to follow the
Eighth Circuit’s Lenz decision, which did not
emphasize the text of § 1, its original meaning in
1925, or the scope of the two enumerated categories.
Southwest contends that Saxon therefore forfeited or
waived her arguments, though Saxon insists she
generally raised the relevant issues in the district
court.
We need not resolve this dispute. Even if Saxon
had waived her arguments by failing to present them
in the district court, we would still consider them now.
We may, in our discretion, forgive waiver or forfeiture
in a case that presents a pure question of statutory
interpretation that the parties have fully briefed on
appeal. E.g., Hively v. Ivy Tech Cmty. Coll. of Ind., 853
F.3d 339, 351 (7th Cir. 2017) (en banc); Amcast Indus.
Corp. v. Detrex Corp., 2 F.3d 746, 749-50 (7th Cir.
1993). We exercise such discretion sparingly, see In re
Sw. Airlines Voucher Litig., 799 F.3d 701, 714 (7th
Cir. 2015), but we would elect to do so here. Saxon
presents us with an important and recurring question
of statutory interpretation, and the district court
itself correctly noted the lack of guiding authority. We

8a
think it better to add what clarity we can than to defer
our consideration of these significant issues to a later
date.
B.
On appeal, the parties agree that Southwest’s
business of flying passengers and their baggage (and,
to a lesser extent, freight cargo) is in interstate or
foreign commerce within the meaning of § 1.
Southwest disputed this point in the district court and
argued that to be in commerce meant only transport
of goods—not primarily people and their effects —but
it abandoned that theory on appeal. We have no
reason to dispute its concession and accept that the
movement of goods accompanying people, just as
much as the movement of goods alone, is in interstate
commerce. See Singh v. Uber Techs. Inc., 939 F.3d
210, 226 (3d Cir. 2019).
That Southwest is engaged in commerce does
not resolve this case. Saxon contends otherwise in her
broadest argument, suggesting that the proper class
of workers parallel to seamen and railroad employees
is “airline employees.” She defines that group simply
enough: those employed by an airline, a class of which
she is obviously a part.
Although this view draws a bright and clear
line, it is inconsistent with the text of the residual
exemption. The phrase “any other class of workers
engaged in foreign or interstate commerce” asks that
the class of workers, not their employer, be engaged
in commerce. This feature cuts both ways. On the one
hand, a transportation worker need not work for a

9a
transportation company. Int’l Bhd. of Teamsters Local
Union No. 50 v. Kienstra Precast, LLC, 702 F.3d 954,
957 (7th Cir. 2012). But on the other hand, a person
does not become a transportation worker just by
working for a transportation company. See Lenz, 431
F.3d at 351; Perez v. Globe Airport Sec. Servs., Inc.,
253 F.3d 1280, 1284 (11th Cir. 2001), vacated 294
F.3d 1275 (11th Cir. 2002) (joint stipulation to
dismiss); Cole v. Burns Intl Sec. Servs., 105 F.3d 1465,
1469, 1472 (D.C. Cir. 1997). The employer’s business
might well inform the “ultimate inquiry” whether its
employees are engaged in commerce, Rittmann v.
Amazon.com, Inc., 971 F.3d 904, 917 (9th Cir. 2020);
Waithaka v. Amazon.com, Inc., 966 F.3d 10, 22-23 (1st
Cir. 2020), but the employer is not itself the inquiry.
Ramp supervisors are not transportation workers just
because they work for Southwest.
Instead, to be exempted under the residual
clause of § 1, the ramp supervisors must themselves
be engaged in interstate or foreign commerce. To
resolve that question we ask “whether the interstate
movement of goods is a central part of the class
members’ job description,” meaning that the workers
are actively occupied in “the enterprise of moving
goods across interstate lines.” Wallace, 970 F.3d at
801-02. This line is not as easy to draw.
Wherever the line may be, though, ramp
supervisors fall on the transportation-worker side of
it. A central part of their job is the loading and
unloading of cargo for planes on interstate and
international flights. Although this is officially the
role of the ramp agents, not the supervisors, Saxon
estimates that she and her peers each cover three full

10a
ramp-agent shifts per week. Southwest offered no
evidence to contradict this estimate. We need not
consider, then, whether supervision of cargo loading
alone would suffice. Ramp supervisors and ramp
agents alike spend a significant amount of their time
engaged in physically loading baggage and cargo onto
planes destined for, or returning from, other states
and countries, and that cargo-loading work is
interstate or foreign commerce.
Southwest argues, and the district court
concluded, that loading and unloading cargo is not
enough to make a worker engaged in commerce
because that phrase refers only to “actual
transportation.”
The
premise
is
correct.
“[T]ransportation workers are those who are ‘actually
engaged in the movement of goods in interstate
commerce.’” Id. at 801 (citing Kienstra Precast, 702
F.3d at 956). We differ, however, in the conclusion.
Actual transportation is not limited to the precise
moment either goods or the people accompanying
them cross state lines. Loading and unloading cargo
onto a vehicle so that it may be moved interstate, too,
is actual transportation, and those who performed
that work were recognized in 1925 to be engaged in
commerce. Indeed, one year earlier, the Supreme
Court held it was “too plain to require discussion that
the loading or unloading of an interstate shipment by
the employees of a carrier is so closely related to
interstate transportation as to be practically a part of
it” and thus a person injured while unloading cargo
from a train was employed in commerce. Balt. & Ohio
Sw. R.R. v. Burtch, 263 U.S. 540, 544 (1924).

11a
The same logic extended to stevedores and
longshoremen, the dockworkers who loaded and
unloaded ships at port. The Supreme Court in 1928
deemed “[t]he unloading of a ship” to have “direct
relation to commerce and navigation,” such that a
stevedore was within federal maritime jurisdiction.
N. Coal & Dock Co. v. Strand, 278 U.S. 142, 144
(1928). A decade later the Court reiterated this point
in stronger terms: “No one would deny that the crew
would be engaged in interstate or foreign commerce if
busied in loading or unloading an interstate or foreign
vessel.” Puget Sound Stevedoring Co. v. State Tax
Comm’n, 302 U.S. 90, 92 (1937) (emphasis added).
The Court recognized that the work the crew was
engaged in—loading and unloading a vessel—was
itself interstate or foreign commerce. Id. at 94; see
also Joseph v. Carter & Weekes Stevedoring Co., 330
U.S. 422, 427 (1947) (“The transportation in
commerce, at the least, begins with loading and ends
with unloading.”). A cargo loader may not herself
cross the state border, but without her work, neither
would the goods in her care. She is an essential part
of the enterprise of transporting goods between states
and countries.
Southwest points out that the Supreme Court
overruled these stevedoring cases in Department of
Revenue v. Association of Washington Stevedoring
Companies, 435 U.S. 734 (1978). The Court did not,
however, abrogate its holdings that stevedores were
engaged in commerce, let alone imply the cases were
wrong when decided. Originally, because stevedoring
was commerce, the Court held it was per se
unconstitutional for states to tax that work. Puget
Sound, 302 U.S. at 94. Forty years later the Court

12a
eliminated this per se prohibition of taxation. Ass’n of
Wash. Stevedoring Cos., 435 U.S. at 748-50. It
reaffirmed, however, that stevedoring was commerce,
and, the court presumed, commerce in the sense of
“movement” and “transport,” as distinct from
“commerce that does not move goods.” Id. at 748.
We are thus left with the firm conviction that
cargo loaders generally are a class of workers engaged
in the actual transportation of goods. Ramp
supervisors who also load and unload cargo in the
manner Saxon attests, in turn, are airplane cargo
loaders and members of that class, and thus engaged
in commerce for purposes of § 1.
C.
A comparison to the enumerated categories of
seamen and railroad employees in § 1 further
supports our conclusion that a ramp supervisor falls
within the residual clause and is a transportation
worker like them.
1.
Regarding seamen, we again agree with the
district court and Southwest’s premise, but not their
conclusion. The term “seaman” is a term of art that
excludes the stevedores, longshoremen, and landbased dockworkers to whom we just compared ramp
supervisors. See McDermott Int’l, Inc. v. Wilander,
498 U.S. 337, 342, 348 (1991). The distinction is quite
literal thanks to a quirk from 1927: “seaman” is
statutorily defined by its exclusion from the
Longshoremen’s and Harbor Workers’ Compensation

13a
Act, Pub. L. No. 69-803, 44 Stat. 1424 (1927) (codified
as amended at 33 U.S.C. §§ 901-950). See Chandris,
Inc. v. Latsis, 515 U.S. 347, 355-56, 358-59 (1995).
Saxon argues that seamen meant something
different two years earlier, in 1925, and then included
dockworkers. This is partially correct. International
Stevedoring Co. v. Haverty, 272 U.S. 50, 52 (1926), did
hold that a stevedore was a seaman for purposes of
the Jones Act, Pub. L. No. 66-261 § 31, 41 Stat. 988,
1006 (1920) (codified as amended at 46 U.S.C. §§
30101¬30106), which provides a claim in negligence
for injured seamen. The Compensation Act abrogated
that holding, but even at the time Haverty’s reasoning
applied only to the Jones Act. The Court
acknowledged that “for most purposes, as the word is
commonly used, stevedores are not ‘seamen.’”
Haverty, 272 U.S. at 52. Because stevedores and
seamen performed similar tasks, the Court inferred
that Congress wanted them to receive the same
protections, regardless of job title. Id.; see also Uravic
v. F. Jarka Co., 282 U.S. 234, 239 (1931) (explaining
that Haverty did not “say or mean that stevedores are
to be regarded as seamen” only that they are “given
the rights of seamen”). There was and remains a
“fundamental distinction” between seamen and landbased workers. See Chandris, 515 U.S. at 358.
A distinction, even a fundamental one, does not
necessarily mean a difference. Saxon does not purport
to be a seaman but to perform work sufficiently
analogous to seamen to infer she is engaged in
commerce like them. Southwest gives us no reason to
believe the distinction between seamen and
longshoremen rests on their relation to commerce.

14a
Instead, it is typically justified by the unique hazards
that seamen face on the open seas. See Chandris, 515
U.S. at 354-55. So Haverty’s extension of the seaman’s
protections to stevedores was questionable, but its
broader point remains valid. Seamen, stevedores, and
longshoremen performed similar—even if not
identical—work. Other cases contemporary to the
Arbitration Act also carried this theme and
recognized that the crew of the ship had historically
performed the specialized work of the stevedore and
longshoreman. See Puget Sound, 302 U.S. at 92;
Atlantic Transp. Co. of W. Va. v. Imbrovek, 234 U.S.
52, 62 (1914). Given this similarity in their work we
see no reason to infer that Congress’s express
inclusion of seamen in § 1 leads to an implied
exclusion of longshoremen or other cargo loaders like
them. They are all workers engaged in interstate or
foreign commerce, even if they are not the same class.
Southwest urges us to follow the Fifth Circuit,
which, in Eastus v. ISS Facility Services, Inc., 960
F.3d 207 (5th Cir. 2020), noted the parties’ agreement
that longshoremen were not an exempted class of
workers. Id. at 211-12. The appellant, Heidi Eastus,
supervised and assisted airport ticketing and gate
agents who placed passengers’ baggage on conveyor
belts to be screened and loaded. Id. at 208. Because
her work could “at most be construed as loading and
unloading airplanes,” she resembled more a
longshoreman than a seaman, so the court held she
was also not exempt. Id. at 212.
Saxon does not make the same concession as in
Eastus, and without that starting point, we do not
think its logic directly applies here. Eastus addressed

15a
little of the history that we have covered. Instead, its
analysis rested on a decision interpreting the term
“seaman” under § 1 and expressly disclaiming
reliance on the residual clause. See Brown v. Nabors
Offshore Corp., 339 F.3d 391, 394 (5th Cir. 2003).
Longshoremen may not belong to the enumerated
class of seamen, but it cannot follow that one is not a
transportation worker just because she is not a
seaman. The residual clause must have some content
beyond just the enumerated categories, lest we read
it out of the statute entirely. Excluding all cargo
loaders also conflicts with the Third Circuit’s
established interpretation of § 1 through railroad law,
as we explore further below. We express no opinion on
whether Eastus herself was a transportation
worker—she did not personally load and unload
cargo, and so was at least one step removed from
either longshoremen or ramp supervisors like Saxon.
2.
Even if a gap existed in the analogy between
seamen and cargo loaders, we still must compare
ramp supervisors to the other enumerated category,
railroad employees. One complicating matter is that,
unlike seaman, “railroad employee” is not a term of
art with any settled meaning. The Supreme Court has
noted only that the term “may have swept more
broadly at the time of the Act’s passage than might
seem obvious today.” New Prime, 139 S. Ct. at 543.
In the absence of other guidance, Saxon
proposes the term should be understood by its plain
meaning—those employed by a railroad, obviously
including porters and other train cargo loaders. She

16a
also supports a broad construction by pointing to the
Transportation Act of 1920, tit. III, Pub. L. No. 66152, 41 Stat. 456, 469 (repealed 1926), which
established a Railroad Labor Board to resolve
disputes between railroads and their employees,
including train cargo loaders but also clerks and
janitors only tangentially related to transportation.
E.g., Bhd. of Ry. & S.S. Clerks v. Erie R.R., Decision
No. 1210, 3 R.L.B. 667, 667 (1922); see also Ry. Emps.’
Dept. v. Ind. Harbor Belt R.R., Decision No. 982, 3
R.L.B. 332, 337 (1922) (defining “employee” broadly to
mean “those engaged in the customary work directly
contributory to the operation of the railroads”). These
possibilities, however, too closely resemble the
employer-based reasoning that we have already said
is incompatible with the residual clause, and so have
limited utility in interpreting that clause, whatever
merit they may have for the enumerated category of
railroad employees.
We need not rest on these broad definitions,
though, because cargo loaders fit within a narrower
class of railroad employees defined by their relation
to commerce. The Federal Employers’ Liability Act
(FELA), Pub. L. No. 60-100, § 2, 35 Stat. 65 (1908)
(codified as amended at 45 U.S.C. §§ 51-60), allowed
railroad workers injured while “employed ... in ...
commerce” to sue the railroad for negligence.
Considering the substantial overlap between this
formulation and § 1 of the Arbitration Act, the Third
Circuit—applying the same ejusdem generis
reasoning that the Supreme Court later adopted in
Circuit City—first relied on FELA caselaw to inform
its interpretation of § 1 decades ago. See Tenney
Eng’g, Inc. v. United Elec. Radio & Mach. Workers of

17a
Am., Local 437, 207 F.2d 450, 452-53 (3d Cir. 1953)
(en banc).
The FELA cases identify at least two general
categories of workers employed in interstate
commerce, beyond the obvious worker who physically
crosses state lines. The first category included those
who worked on an intrastate leg of an interstate
journey. See, e.g., Phila. & Reading Ry. v. Hancock,
253 U.S. 284, 285-86 (1920). The First and Ninth
Circuits recently relied on this line of cases to
conclude that so-called “last mile” delivery drivers fit
within the § 1 exemption. See Rittmann, 971 F.3d at
912; Waithaka, 966 F.3d at 20-21. Ramp supervisors
and cargo loaders do not resemble this category, so we
have no need to decide whether we agree with that
position today.
Cargo loaders fit cleanly into the second
category—those whose work was “so closely related to
[interstate transportation] as to be practically a part
of it.” Shanks v. Del., Lackawanna & W.R.R., 239 U.S.
556, 558 (1916). As we have already noted, the Court
held in 1924 that it was “too plain to require
discussion that the loading or unloading of an
interstate shipment” sufficed for a worker to fit within
this category. Burtch, 263 U.S. at 544. Although the
First Circuit has expressly reserved the question,
Waithaka, 966 F.3d at 20 n.9, 22 n.10, the Third
Circuit has consistently held that workers are exempt
under § 1 if they are so closely related to
transportation as to be part of it. See Singh, 939 F.3d
at 226; Palcko v. Airborne Express, Inc., 372 F.3d 588,
593 (3d Cir. 2004); Tenney Eng’g, 207 F.2d at 453.

18a
Southwest does not dispute that train cargo
loaders were “employed in commerce” for FELA
purposes in 1925. It protests only that we should not
rely on FELA to interpret the Arbitration Act. FELA
is construed liberally to effect a remedial purpose, it
insists, but the Arbitration Act has no remedial
purpose. Its purpose is to favor arbitration.
Otherwise, Southwest fears a slippery slope—
excluding ramp supervisors could eventually lead to
excluding ticket and gate agents, security guards, taxi
drivers, and airport vendors all on the ground that
each supports the work of the airline.
We find neither of these objections compelling.
Southwest has given us no reason to believe that
FELA’s remedial purpose influenced the extension of
its protections to cargo loaders. See Rittmann, 971
F.3d at 912 n.2 (same for workers on intrastate
portions of interstate journeys); Waithaka, 966 F.3d
at 22 (same). The Supreme Court in Burtch did not
just say cargo loaders were employed in commerce but
that it was “too plain to require discussion” that they
“fully satisfy” that test. 263 U.S. at 544. To exclude all
cargo loaders, then, we would have to abandon any
comparison to FELA whatsoever—without an
alternative, narrower proposal from Southwest by
which to compare unenumerated workers to railroad
employees—and put ourselves in conflict with the
Third Circuit’s approach and in tension with the First
and Ninth Circuits’ interpretation of § 1. Cargo
loaders are a relatively easy question under FELA, so
we do not see a need, in this case, to go as far as the
Ninth Circuit and hold that FELA’s remedial purpose
affected only its definition of negligence. Rittman, 971
F.3d at 912 n.2. Nor do we foreclose the possibility

19a
that some workers who were “employed in commerce”
for FELA purposes in 1925 are not “engaged in
commerce” for purposes of the Arbitration Act. If
those workers exist, they were not cargo loaders.
For similar reasons, we do not see this as the
start of a slippery slope. For one, much of Southwest’s
fear rests on FELA decisions after 1939, when
Congress loosened the “employed in commerce” test.
See S. Pac. Co. v. Gileo, 351 U.S. 493, 498-99 (1956).
Later decisions thus shed little light on what it meant
to be engaged in commerce in 1925. In any event,
Southwest does not suggest transportation workers
are limited to those who physically cross state lines
and we do not think such a limitation could be
supported. The loading of goods into a vehicle
traveling to another state or country is the step that
both immediately and necessarily precedes the
moment the vehicle and goods cross the border. To say
that this closely related work is interstate
transportation does not necessarily mean that the
work of a ticketing or gate agents (like in Eastus) or
others even further removed from that moment
qualify too. We say this not to prejudge future cases,
but only to reiterate that a transportation worker
“must be connected not simply to the goods, but to the
act of moving those goods across state or national
borders.” Wallace, 970 F.3d at 802. Whether the goods
have been or ultimately will go to another state or
country is not important except to the extent the class
of workers directly progresses them on that journey.
Airplane cargo loaders like Saxon are essential to that
progress in a way distinct even from other airline
employees.

20a
3.
The foregoing analysis rests on the premise
that the common characteristics of seamen and
railroad employees, for ejusdem generis purposes, is
their relationship with interstate or foreign
commerce. Southwest offers a different view. It
asserts that the link between seamen and railroad
employees is that both were subject to alternative
dispute-resolution schemes in 1925. The purpose of
the § 1 exemption in the Arbitration Act, it contends,
was to avoid conflict with such schemes, including the
Railway Labor Act. See Circuit City, 552 U.S. at 12021 (calling this purpose a “permissible inference”).
Because Saxon, as a supervisor, is not covered by the
Railway Labor Act (and certainly would not have been
in 1925, a year before it existed and a decade before it
extended to airline workers), Southwest contends
that she cannot be exempt from the Arbitration Act.
The critical flaw with this argument is that the
text of § 1 does not tie exemption to any other law.
The text directs us to ask whether the class of workers
is engaged in commerce. Even if Southwest correctly
identifies the purpose of § 1, “[p]urpose cannot
override text.” Waithaka, 966 F.3d at 25 (citing New
Prime, 139 S. Ct. at 543). If Congress intended to
exempt only workers covered by dispute-resolution
schemes in 1925, it could have enumerated them and
skipped the residual exemption entirely. See id.
The consequences of excluding Saxon despite
the absence of some other federal arbitration scheme
are not nearly as dire as Southwest predicts. It insists
that our holding will create a subset of workers
“completely unable to agree to arbitration.” But Saxon

21a
could still face arbitration under state law or through
an agreement outside of her contract of employment.
All we decide today is that the Federal Arbitration
Act’s policy favoring arbitration does not extend to
Saxon’s contract of employment under the plain text
of § 1. The exemption in 9 U.S.C. § 1 reflects a limit
Congress placed on its otherwise liberal favor toward
arbitration, and we are obligated to respect that limit
before enforcing the Arbitration Act. New Prime, 139
S. Ct. at 543.
IV.
Because we conclude that airplane cargo
loaders are a class of workers engaged in commerce
and Saxon is a member of that class, it follows that
she is a transportation worker whose contract of
employment is exempt from the Federal Arbitration
Act. We therefore reverse the district court’s
judgment compelling arbitration and remand for
further proceedings.

22a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
_______________
LATRICE SAXON, INDIVIDUALLY AND ON BEHALF OF
OTHERS SIMILARLY SITUATED,
Plaintiff,
v.
SOUTHWEST AIRLINES CO.,
Defendant.
_______________
Case No. 19-cv-0403
Robert M. Dow, Jr., Judge.
_______________

MEMORANDUM OPINION AND ORDER
Plaintiff Latrice Saxon brings a putative
collection action brought pursuant to the Fair Labor
Standards Act. Before the Court is Defendant
Southwest Airline’s motion to dismiss for improper
venue, arguing that Plaintiffs case must be
arbitrated. [13]; see also [27]. For the reasons set
forth below, Defendant’s motion to dismiss is granted
and this civil case is terminated.

23a
I. Background
This case arises out of a putative collective
action brought pursuant to the Fair Labor Standards
Act, 29 U.S.C. §201 et seq. Before the case can proceed
to the merits, however, the Court must first
determine the threshold issue of whether the case
must be dismissed in favor of arbitration. Both the
details of Plaintiff’s job responsibilities and the
procedural history are provided for context.
A. Job Duties
Plaintiff Latrice Saxon is a “non-exempt
ramp supervisor” for Defendant Southwest Airlines
at Midway International Airport. [1, ¶¶8, 10.] 1 The
listed duties of Ramp Supervisors include (but are not
limited to): assigning subordinate “Ramp Personnel”
to various tasks and monitoring their work flow;
training “Ramp Agents;” and “determin[ing] that
aircraft are properly serviced and provisioned prior to
departure.” [27-2 at 2.] The Ramp Supervisor position
also requires that supervisors “be able to lift and move
items of 70 pounds and/or more on a regular basis and
repetitively lift weights of 40 to 50 pounds on raised
surfaces.” [27-2 at 3.]
Ramp Supervisors, such as Plaintiff, “are
restricted from performing Ramp Agent duties
because of the collective bargaining agreement
(”CBA“) between [Defendant] and Transportation
Through the briefing and attached materials, the position is
referred to as “Ramp Supervisor,” “Ramp Agent Supervisor,” and
various permutations thereof. The Court infers that these are all
the same position of “Ramp Supervisor.”
1

24a
Workers Union [] Local 555.” [27-1, ¶5.] Ramp Agents’
primary duties include loading and unloading
baggage and guiding planes to gates. Id. The
restriction on Supervisors’ ability to perform Agent
tasks is not, however, absolute. Supervisors are
tasked with overseeing Ramp Agents and “may
continue to perform covered work [e.g., loading
baggage] while on duty, with the understanding that
the intent is for a supervisor to assist, direct, train,
evaluate agent performance and support the
operation by managing and directing the workforce.”
[27-1 at 3.] Moreover, although Ramp Supervisors
may not preempt Agents for shifts, Agents may give
their shifts to Ramp Supervisors in certain
circumstances. [Id.] Thus, though Ramp Supervisors’
ability to perform Agents’ tasks (most importantly
handling baggage) is “restricted,” [27-1, ¶ 5], this
restriction is not a complete bar.
In fact, Plaintiff alleges that she regularly
“fill[s] in for Ramp Agents at least three out of the five
days each week” that she works. When she “step[s]
into the shoes of the Ramp Agents,” Plaintiff
“perform[s] the Ramp Agents’ duties of loading and
unloading the goods and cargo from Southwest
planes.”2 Plaintiff further explained that in addition to
Defendant contends that “Ramp Agent Supervisors” are
restricted from performing Ramp Agent duties. [27 at 6.] As
explained above, however, this restriction is not absolute, and
according to Defendant’s own documentation, Supervisors may
perform Ramp Agent duties in limited circumstances. To the
extent that there is a factual dispute as to whether Plaintiff has
handled luggage and freight in her role as Ramp Supervisor, for
purposes of this motion the Court assumes that she has done so.
Her affidavit is contradicted, and the materials that Defendant
2

25a
passengers’ personal luggage, Southwest ships (and
she has handled) other freight. [Id, ¶ 6-7.] Defendant
concedes that it ships freight but argues that most of
the goods shipped in its planes’ cargo holds are
passenger luggage. [27-1, ¶ 6 (“[T]he ratio of passenger
baggage to freight cargo at Midway was 10:1. This
means that Midway Ramp Agents handled ten (10)
times more baggage than they handled freight in
2018”).] In addition to customer baggage and air
freight, Defendant also apparently ships “air mail,
ballast, and Company materials.” [27-1 at 13.] The
Court infers that when Supervisors “step into the
shoes” of Agents, they also load and unload this cargo,
see [28-1, ¶¶ 3-5], but neither side has offered any
evidence or assertion as to what proportion of cargo is
comprised of these items.
There is one further important difference
between Ramp Agents and Ramp Supervisors—the
former are included in a CBA; the latter are not. [272 at 10, 13.] Thus, according to the terms of Plaintiff’s
employment, she must individually arbitrate in cases
such as this through a process of Alternative Dispute
Resolution (ADR). See generally [14-5].

has attached to their supplemental briefing show that Ramp
Supervisors may perform Ramp Agent duties (albeit in limited
circumstances). Moreover, the job description for Ramp
Supervisor requires that employees be able to, for example,
“repetitively lift weights of 40 to 50 pounds on raised surfaces.”
This requirement would be inexplicable and superfluous if Ramp
Supervisors did not have to “step into the shoes” of Agents and
load and unload cargo.

26a
B. Procedural History
Plaintiff filed a putative collective action
lawsuit against Defendant, alleging a violation of the
FLSA for failure to pay overtime wages. [1, ¶¶ 28-45.]
Defendants moved to dismiss pursuant to Fed. R. Civ.
P. 12(b)(3) for improper venue or in the alternative to
stay proceedings pursuant to 9 U. S.C. § 3. See
generally [14]. Defendants alleged that Plaintiff had
signed a binding arbitration agreement, valid under
Illinois law, that required her to individually
arbitrate all wage and hour related claims against
Defendant. [Id.] Because this suit was within the
scope of that ADR Agreement, they argue, she must
submit to arbitration. See [id]; see also generally [145 (providing documentation of Plaintiff’s submission
to ADR Agreement)].
Plaintiff conceded that she signed the ADR
Agreement, and that if the Federal Arbitration Act
(FAA), 9 U.S.C. § 1 et seq., applies to her, ADR would
be the proper venue for this suit. See [25-1 at 2].
Therefore, the only threshold issue is whether she is
exempt from the FAA under § 1. [Id.]. The Court
authorized limited discovery into Plaintiff’s job duties
for the sole purpose of determining whether this
Court is the proper venue for the FLSA action. [25-1,
7]; [26].
II. Legal Standard
A motion seeking dismissal pursuant to an
arbitration agreement is best “conceptualized as an
objection to venue, and hence properly raised under
12(b)(3) * * *.” Automobile Mechanics Local 701

27a
Welfare and Pension Funds v. Vanguard Car Rental
USA, Inc., 502 F.3d 740, 746 (7th Cir. 2007). The
Seventh Circuit has instructed that all facts be
construed and all reasonable inferences be drawn in
favor of the plaintiff. Faulkenberg v. CB Tax
Franchise Systems, LP, 637 F.3d 801, 806 (7th Cir.
2011); see also Jackson v. Payday Financial, LLC, 764
F.3d 765, 773 (7th Cir. 2014). In contrast to the
familiar Rule 12(b)(6) motion, “[w]hen ruling on a
motion to dismiss for improper venue, the district
court is not obligated to limit its consideration to the
pleadings [or to] convert the motion to one for
summary judgment if the parties submit evidence
outside the pleadings.” Faulkenberg, 637 F.3d at 80910 (7th Cir. 2011). “The party opposing arbitration
has the burden of establishing why the arbitration
provision should not be enforced.” Wallace v. Grubhub
Holdings Inc., 2019 WL 1399986, *2 (N.D. Ill. Mar.
28, 2019) (citing Green Tree Financial Corp.-Alabama
v. Randolph, 531 U.S. 79, 91-92 (2000)).
III. Discussion
Preliminarily, the Supreme Court has
explained time and again that the Federal Arbitration
Act (FAA), 9 U.S.C. §§ 1 et seq., “establishes ‘a liberal
federal policy favoring arbitration agreements.’” Epic
Systems Corp. v. Lewis, 138 S. Ct. 1612, 1621 (2018)
(quoting Moses H. Cone Memorial Hospital v. Mercury
Constr. Corp., 460 U.S. 1, 24 (1983)); accord, e.g.,
American Exp. Co. v. Italian Colors Restaurant, 570
U.S. 228, 243-44 (2013) (“[The FAA] reflects a federal
policy favoring actual arbitration * * *.”); AT&T
Mobility LLC v. Concepcion, 563 U.S. 333, 345 (2011)

28a
(“[O]ur cases place it beyond dispute that the FAA
was designed to promote arbitration.”); Circuit City,
532 U.S. at 123 (“Arbitration agreements allow
parties to avoid the costs of litigation, a benefit that
may be of particular importance in employment
litigation.”); Gilmer v. Interstate/Johnson Lane Corp.,
500 U.S. 20, 26 (1991) (“[I]t should be kept in mind
that questions of arbitrability must be addressed with
a healthy regard for the federal policy favoring
arbitration.”) (quotation marks and citation omitted);
Prima Paint Corp. v. Flood & Conklin Mfg. Co., 388
U.S. 395, 404 (1967) (noting “the unmistakably clear
congressional purpose that the arbitration procedure,
when selected by the parties to a contract, be speedy
and not subject to delay and obstruction in the
courts”). Thus, absent a clear statutory exception to
the arbitrability of Plaintiff’s claim, the Court must
“respect and enforce agreements to arbitrate[.]” See
Epic Systems, 138 S. Ct. at 1621.
Section 2 of the FAA defines the class
of arbitrable cases; it provides:
A written provision in any maritime
transaction or a contract evidencing a
transaction involving commerce to
settle by arbitration a controversy
thereafter arising out of such contract
or transaction, or the refusal to perform
the whole or any part thereof, or an
agreement in writing to submit to
arbitration an existing controversy
arising out of such a contract,
transaction, or refusal, shall be valid,
irrevocable, and enforceable, save upon

29a
such grounds as exist at law or in
equity for the revocation of any
contract.
The Supreme Court has held that employment
contracts are contracts “evidencing a transaction
involving commerce.” Circuit City, 532 U.S. at 113
(discussing Gilmer, 500 U.S. 20). Thus, Plaintiff’s
signed arbitration agreement is “valid, irrevocable,
and enforceable” under § 2 unless an exception
applies.
Plaintiff argues the signed arbitration
agreement is unenforceable because she falls under
an exception in § 1 of the FAA.3 In relevant part, § 1
reads: “nothing herein contained shall apply to
contracts of employment of seamen, railroad
employees, or any other class of workers engaged in
foreign or interstate commerce.” Otherwise valid
agreements to arbitrate cannot be enforced if part of
a contract of employment with an enumerated
worker. See New Prime, 139 S. Ct. at 539. Plaintiff
acknowledges that she is neither a seafarer nor
railroad employee but argues that she is “engaged in
foreign or interstate commerce.” See 9 U.S.C. § 1. In
support, she points to her handling of baggage,
freight, and other goods shipped interstate; her
supervision of these shipments; and the fact that
Defendant is an airline. Defendant counters that it is
The parties do not dispute, and the Court need not address, the
question of arbitrability of arbitrability. As the Supreme Court
recently held, “a court should decide for itself whether § 1’s
‘contracts of employment’ exclusion applies before ordering
arbitration.” New Prime Inc. v. Oliveira, 139 S. Ct. 532, 537
(2019).
3

30a
not, in fact, a transportation company; Plaintiff never
personally transports goods interstate; and
exceptions to the FAA should be applied narrowly.
Notwithstanding the broad language in the
residual clause to § 1 of the FAA, the Supreme Court
has adopted a narrow construction of “engaged in
foreign or interstate commerce.” Circuit City, 532 U.S.
at 109. It arrived at this conclusion by employing the
ejusdem generis canon of statutory construction,
which instructs that “[w]here general words follow
specific words in a statutory enumeration, the general
words are construed to embrace only objects similar
in nature to those objects enumerated by the
preceding specific words.” Id. at 115-16 (quotation
marks and citations omitted). Because “engaged in
interstate commerce” is preceded by references to
specific occupations within the transportation
industry, the Court reasoned that “Section 1 exempts
from the FAA only contracts of employment of
transportation workers.” Id. at 119. The Supreme
Court further elaborated that “transportation
workers” could be “defined, for instance, as those
workers ‘actually engaged in the movement of goods in
interstate commerce.’ Id. at 112 (quoting Cole v. Burns
Intern. Sec. Services, 105 F.3d 1465, 1471 (D.C. Cir
1997) (collecting cases)); see also id. at 134-35 (Souter,
J., dissenting) (“A majority of this court now puts its
imprimatur on the majority view among the Courts of
Appeals.”); International Broth. of Teamsters Local
Union No. 50 v. Kienstra Precast, LLC, 702 F.3d 954,
956 (7th Cir. 2012) (employing the Supreme Court’s
illustrative definition); but see Singh v. Uber
Technologies Inc., F.3d, 2019 WL 4282185 at *9 (3d
Cir. Sept. 11, 2019) (describing this definition as

31a
illustrative dicta). Although the Supreme Court
recently interpreted the § 1 exemption, it did not have
occasion to clarify the definition of “transportation
worker.” See New Prime, 139 S. Ct. at 539.
As one court has observed, “[i]n the 18 years
since the Supreme Court decided Circuit City, state
and federal courts have grappled with these
unresolved issues, but ‘little consensus has been
realized.’” Muller v. Roy Miller Freight Lines, LLC,
246 Cal.Rptr.3d 748, 753-757 (Cal. Ct. App. 2019)
(collecting cases and quoting Kowalewski v.
Samandarov, 590 F. Supp. 2d 477,482 (S.D.N.Y.
2008)). However, the cases examining the definition
of “transportation worker” have identified several
rules-of-thumb to guide decision-making. Although
the case at bar defies easy categorization, these rulesof-thumb illuminate the outer bounds of the term
“transportation workers.”
“If there is one area of clear common ground
among the federal courts to address this question, it
is that truck drivers—that is, drivers actually
involved in the interstate transportation of physical
goods—have been found to be ‘transportation
workers’ for purposes of the residuary exemption in
Section 1 of the FAA.” Kowalewski, 590 F. Supp. 2d at
483 (collecting cases). The Seventh Circuit recently
confirmed this consensus, even as applied in a
borderline case. See Kienstra, 702 F.3d at 957. In
Kienstra, the plaintiffs worked at a cement company,
not a trucking company, and, when they did deliver
goods, they did so almost exclusively intrastate. Id.
But, because the truckers made “a few dozen”
interstate trips out of “1500 to 1750 delivers each

32a
year” they were interstate transportation workers for
the purposes of § 1 of the FAA. Id. at 958; but see Hill
v. Rent-A-Center, Inc., 398 F.3d 1286, 1289-90 (11th
Cir. 2005) (explaining that an accounts manager who
made incidental deliveries across state lines is no
more a transportation worker than “a pizza delivery
person who delivered pizza across a state line to a
customer in a neighboring town”).4 Here, Plaintiff
does not assert in the complaint that she personally
transported goods across state lines, so she does not

Defendant argues that one component of the test for
“transportation worker” under Circuit City includes whether the
worker is employed “in an industry that primarily involves the
actual, physical movement of goods through interstate
commerce.” [27 at 1 (citing JetBlue Airways Corp. v. Stephenson,
2010 WL 6781684, *2 (N.Y. Sup. Ct. Nov. 22, 2010) (emphasis in
original).] Defendant further contends, again relying on JetBlue,
that passenger airlines that also carry cargo, such as Defendant,
are solely in the “passenger airline industry.” [27 at 2 (citing
JetBlue, 2010 WL 6781684 at *2).] In other words, JetBlue
discounted the fact that JetBlue Airlines shipped a small
amount of freight and concluded that transporting passengers is
not commerce. JetBlue, 2010 WL 6781684 at *3. Preliminarily,
the New York State trial court’s unpublished opinion is hardly
the only word on the matter. See, e.g., Singh, 2019 WL 4282185
at *7-12 (explaining that Uber drivers may be “transportation
workers” within § 1 of the FAA); id. at *15-16 (Porter, J.,
concurring) (stressing that there is no “goods-passengers
distinction” in § 1 of the FAA). But even if the Court found
JetBlue’s reasoning persuasive, however, the Court is bound by
the Seventh Circuit’s holding in Kienstra. Although the workers
in Kienstra were primarily employed in the cement industry, the
Seventh Circuit still found them to be transportation workers.
Likewise, the Seventh Circuit found that infrequent interstate
deliveries of goods were enough to trigger the exception in § 1,
contradicting JetBlue’s reasoning regarding the proportion of
activity directed toward interstate commerce.
4

33a
automatically qualify as a transportation worker
under Kienstra.
There is also a broad consensus that drivers
who make intrastate deliveries of locally produced
goods are exempt from the FAA. In other words,
pizza-delivery drivers and the like are not
transportation workers because no part of their work
touches interstate commerce. E.g., Wallace v.
Grubhub Holdings Inc., 2019 WL 1399986, *3 (N.D.
Ill. March 28, 2019) (drivers who deliver prepared
meals from restaurants intrastate are not
transportation workers); Lee v. Postmates Inc., 2018
WL 6605659, *7 (N.D. Cal. Dec. 17, 2018) (same);
Magana v. DoorDash, Inc., 343 F. Supp. 3d 891, 899900 (N.D. Cal. 2018) (same); Levin v. Caviar, Inc., 146
F. Supp. 3d 1146, 1152-54 (N.D. Cal 2015) (same).
These cases are also inapplicable to the instant
dispute, for Plaintiff does handle at least some goods
that are in interstate commerce. For example, the
Ramp Supervisors at Midway airport handle air
freight for interstate shipment. [28-1, ¶¶ 4-6]; see also
[27-1 at 13].
Finally, merely working in a transportationadjacent industry or position—without transporting
or handling goods or directing those who do—is not
enough to qualify any employee as a transportation
worker. For example, in Borgonia v. G2 Secure Staff,
the plaintiff worked as a contractor at San Francisco
International Airport performing the following
duties: “security screener, wheelchair agent, and
dispatcher.” 2019 WL 1865927, *1 (N.D. Cal. Apr. 25,
2019). The plaintiff was not deemed to be a
transportation worker because he did not handle

34a
goods in interstate commerce or transport anything.
Id. at *4. Some courts have found an exception to this
rule where the worker in question personally directs
transportation workers engaged in interstate travel.
Compare Lenz v. Yellow Transp., Inc., 431 F.3d 348,
353 (8th Cir. 2005) (concluding that a customer
service representative for trucking company was not
a transportation worker after considering multifactor
balancing test); Lorntzen v. Swift Transp., Inc., 316 F.
Supp. 2d 1093, 1096-97 (D. Kansas 2004) (explaining
that a “Safety Compliance Assistant” for a trucking
company is not a transportation worker); Cole v.
Burns Intern. Sec. Services, 105 F.3d 1465, 1471 (D.C.
Cir. 1997) (holding that a security guard at an train
hub was not a transportation worker), with Zamora
v. Swift Transp. Corp., 2008 WL 2369769, *7-9
(reasoning that a manager who personally monitors
and directs interstate truckers is a transportation
worker); Palcko v. Airborne Express, Inc., 372 F.3d
588, 593-94 (3d Cir. 2003) (same). Here, Plaintiff does
not merely work alongside those who touch interstate
commerce—she handles goods herself. Plaintiff’s role
as a supervisor is discussed below.
In contrast to the aforementioned fact
patterns, the courts are split about two classes of
workers who handle goods that have traveled
interstate, but whose scope of work is entirely
intrastate. The first scenario concerns drivers who
make intrastate deliveries of goods that have been
shipped from out of state. Although most of the courts
to consider these “last-mile” delivery arrangements
conclude that intrastate delivery people to be
transportation workers, some cases hold otherwise.
Compare, e.g., Waithaka v. Amazon.com, Inc., ____ F.

35a
Supp. 3d ____, 2019 WL 3938053, *4 (D. Mass. Aug. 20,
2019) (holding that “last-mile” delivery drivers for
Amazon are transportation workers); Rittman v.
Amazon.com, Inc., 383 F.Supp.3d 1196, 1201-02 (W.D.
Wash. 2019) (same); Muller v. Roy Miller Freight
Lines, LLC, 246 Cal.Rptr.3d 748, 758-59 (Cal. App. Ct.
2019) (holding that driver who made intrastate
deliveries of goods that originated almost exclusively
out of state is a transportation worker); Nieto v. Fresno
Beverage Co., Inc., 245 Cal.Rptr.3d 69, 76-77 (Cal. App.
Ct. 2019) (same); Ward v. Express Messenger Systems,
Inc., No. 17-cv-2005-NYW, *10-11 (D. Colo. Jan. 28,
2019) (order denying motion to compel arbitration)
(explaining that intrastate deliveries of material
shipped interstate by Amazon, Staples and various
pharmaceutical companies qualified as interstate
commerce); Diaz v. Michigan Logistics, 167 F.Supp.3d
375, 380 n.3 (E.D.N.Y. 2016) (opining in dicta that
“Plaintiffs sufficiently allege that they were engaged in
interstate transportation, notwithstanding that they
did not actually drive across state lines, as Plaintiffs
were directly responsible for transporting and
handling automotive parts that allegedly moved in
interstate commerce—the heart of Defendants’
business.”); Christie v. Loomis Armored US, Inc., 2011
WL 6152979, *3 (holding that driver who makes
intrastate deliveries of currency is a transportation
worker), with Bonner v. Michigan Logistics
Incorporated, 250 F. Supp.3d 388, 397 (D. Ariz. 2017)
(assuming that deliveries must cross state lines);
Vargas v. Delivery Outsourcing, LLC, 2016 WL
946112, *4-5 (N.D. Cal. Mar. 14, 2016) (discussing
Kienstra and concluding that a driver who makes
intrastate deliveries of lost or delayed airline luggage

36a
is not a transportation worker).5 Unlike these cases,
in which the workers all indisputably transported
goods, here Plaintiff does not herself transport
anything.
The next scenario—and the one that is most
relevant here—concerns workers who load and
unload packages in a central hub. The courts to have
considered these scenarios have reached split
decisions. The Sixth and Eleventh Circuits have
concluded that postal workers as a class fall within
the FAA’s exemption for workers engaged in
interstate commerce, seemingly regardless of
whether the workers in question transport (as
opposed to merely handle) mail. But both of these
In Muller, the California Court of Appeal attempted to
harmonize these holdings by explaining that there is a difference
between “truckers,” “whose primary purpose is to continue the
flow of interstate commerce by transporting out-of-state freight
and cargo,” and “delivery” drivers, who have a solely local focus.
Muller, 246 Cal. Rptr. 3d. at 758. Other courts have
distinguished Vargas by noting that “luggage, however, ‘was not
a ‘good’ to be delivered until it was delayed or lost by the airline
and then discovered when it was already intrastate. Much like a
food delivery service, a luggage delivery service is not engaged
in interstate commerce because it is not in the business of
shipping goods across state lines, even though it delivers good
that once travelled interstate.” Waithaka, 2019 WL 3938053 at
*3 (quoting Rittman, 383 F. Supp. 3d at 1200). In other words,
Vargas looks more like Borgonia or Grubhub than an
interconnected interstate delivery service. And Bonner’s factual
analysis is so bare bones that it is difficult to discern whether
the drivers are better categorized as drivers delivering locally
produced goods or part of a chain or interstate truckers. See
Bonner, 250 F. Supp. 3d at 397. Regardless, because Plaintiff is
not a last-mile driver, the Court need not delve too deeply into
each of these outliers.
5

37a
cases predate Circuit City and neither case uses the
“transportation worker” framework. Bacashihua v.
U.S. Postal Service, 859 F.2d 402, 405 (6th Cir. 1988)
(“If any class of workers is engaged in interstate
commerce, it is postal workers.”); American Postal
Workers Union, AFL-CIO v. U.S. Postal Service, 823
F.2d 466, 473 (11th Cir. 1987) (“It seems to us that, if
any workers are actually engaged in interstate
commerce, the instant postal workers are.”) (internal
quotations and citation omitted). More recent
decisions, however, generally have concluded that
workers who handle goods shipped in interstate
commerce—but do not transport goods themselves—
are not exempt from the FAA under § 1. Furlough v.
Capstone Logistics, LLC, 2019 WL 2076723, *7 (N.D.
Cal. May 10, 2019) (holding that warehouseman
whose job duties included “loading, unloading, and
handling freight; communicating with drivers; and
monitoring conditions on the docks” was not a
transportation worker); Kropfelder v. Snap-On Tools
Corp., 859 F. Supp. 952, 958-59 (D. Md. 1994)
(concluding that warehousemen who load and unload
trucks used to deliver goods in interstate commerce
are not transportation workers).6
Taken together, these two lines of cases suggest
that the linchpin for classification as a “transportation
worker” under Circuit City is actual transportation,
not merely handling goods. That is, workers who
transport goods intrastate as part of an interstate
Pony-Express style network may be transportation
Another possible explanation for the divergent holdings is
simply that postal work is sui generis. See Lorntzen, 316 F. Supp.
2d at 1097 (distinguishing postal cases from Kropfelder).
6

38a
workers, but those who merely handle those goods at
one end or the other are not. Moreover, the distinction
between transporting goods and merely handling them
is borne out by the other categories of exempt workers
enumerated in § 1. For example, though seamen’s
contracts of employment are exempt from the FAA,
grounds crew such as longshoremen are not considered
seamen. McDermott Intern., Inc. v. Wilander, 498 U.S.
337, 348 (1991) (“Whether under the Jones Act or
general maritime law, seamen do not include landbased
workers[]”
such
as
stevedores
and
longshoremen.); see also Brown v. Nabors Offshore
Corp., 339 F.3d 391, 393, 395 (5th Cir. 2003) (holding
that the definition of “seaman” in the Jones Act should
be used to determine § 1 exemptions from the FAA);
see also Veliz, 2004 WL 2452851, at *4 (explaining that
the legal definitions of seamen and railroad employees
require,
respectively,
an
“employment-related
connection to a vessel in navigation” or “navigation of
a vessel, i.e., transportation”) (quotation marks and
citation omitted) (emphasis added). In other words,
courts have begun to materially distinguish between
nonexempt workers who handle goods in service of
transportation (warehousemen, stevedores, and
porters) and exempt workers who actually transport
them by navigating the channels of interstate
commerce (truckers, seamen, and railroadsmen,
respectively).
The case at bar is virtually indistinguishable
from the cases holding that merely loading and
unloading goods is not “transportation” work. Here,
Plaintiff’s job duties at most include loading and
unloading some cargo from Defendant’s planes, along
with supervising that task. The case is thus identical

39a
to Furlough and Kropfelder, both of which concluded
that warehouse managers who loaded and unloaded
cargo and generally managed warehouse logistics
were not transportation workers. As in those cases,
Plaintiff herself does not transport cargo at all (even
intrastate) and is therefore not a transportation
worker. Accordingly, the FAA does not exempt
Plaintiff and she therefore must arbitrate her claim.
This conclusion is informed by three additional
factors. First, as explained above, the Seventh Circuit
places great weight on whether the worker in
question actually transported goods across state lines.
Kienstra, 702 F.3d at 957-58. The procedural history
of Kienstra further underscores the importance of
interstate travel. When the case originally reached
the Seventh Circuit, it was unclear whether the
truckers had crossed state lines. Id. at 956. Because
the panel felt that it might lack jurisdiction on that
basis, it issued a limited remand to determine
whether the truckers did, in fact, transport goods
interstate. Id. at 955-956. Here, the record is clear
that Plaintiff did not physically transport goods at all,
let alone out-of-state.
Second, the trend in the case law reflects a
growing consensus that handlers are not
transportation workers. As explained above, the two
cases going the opposite direction both failed to use
the “transportation worker” framework, and their
holdings have been called into doubt. Bacashihua,
859 F.2d at 405; American Postal, 823 F.2d at 473; see
also Veliz, 2004 WL 2452851, *6 (“[I]t is unclear to
what degree these cases remain good law.”); cf. also
Rittman, 383 F. Supp. 3d at 1201 n.4 (suggesting that

40a
after Circuit City, the postal cases are most applicable
to postal workers who personally transport packages).
Finally, the Court is mindful of the “liberal
federal policy favoring arbitration agreements.” Epic
Systems, 138 S.Ct. at 1621 (quotation marks and
citation omitted). As far back as 1983, the Supreme
Court explained that “as a matter of federal law, any
doubts concerning the scope of arbitrable issues
should be resolved in favor of arbitration.” Moses H.
Cone, 460 U.S. at 24-25. Since then, the Supreme
Court has reiterated the importance of respecting
valid arbitration agreements, particularly in the
employment context. Epic Systems, 138 S. Ct. at 1621;
Circuit City, 532 U.S. at 123.
The Court is unconvinced by Plaintiff’s
arguments to the contrary. First, Plaintiff points to
the non-exhaustive eight-factor test applied by the
Eighth Circuit in Lenz, arguing that these factors
show that Plaintiff is a transportation worker. [28 at
3-8 (discussing Lenz, 431 F.3d at 352).] But the
Seventh Circuit has not adopted this test and other
courts have noted that these eight factors were
tailored to the facts in Lenz and have limited
applicability in other contexts. See Kowalewski, 590
F. Supp. 2d at 482 n.3; cf. Singh, 2019 WL 4282185 at
*10 n.8. Moreover, although many of these factors
have informed the Court’s decision-making, Lenz
provides no framework for how to weigh each factor
and little guidance regarding application. In fact, the
Lenz court considered the physical transportation of

41a
goods to be of paramount importance and applied its
factors with that in mind.7 Lenz, 431 F.3d at 352-53.
Next, Plaintiffs quote half of another court’s
summary of Kienstra (until the word “but”) to suggest
that the Seventh Circuit is indifferent to interstate
transportation when determining whether someone is
a transportation worker. [28 at 12 (quoting Wallace,
2019 WL 1399986, *3).] As explained above, however,
the holding, reasoning, and procedural history of
Kienstra strongly suggest that, at the very least,
whether a worker crossed state lines is a very
important factor. See Vargas, 2016 WL 946112, at *4.
And there is nothing in Kienstra suggesting that
workers who do not transport anything are
“transportation workers.”
Likewise, Plaintiff does not fall under an
exception for managers recognized by the Third
Circuit. See Palcko, 372 F.3d 592-93; see also Zamora,
2008 WL 2369769 at *8-9 (discussing Palcko). The
plaintiff in Palcko was a manager who supervised and
directed truckers who delivered goods interstate. Id.
at 590. She did not, however, handle goods or travel
interstate herself. Id. at 593. The Third Circuit
reasoned that because the manager directly
manipulated the channels of interstate commerce,
For example, the first Lenz factor is “whether the employee
works in the transportation industry.” Id. at 352. While the
employee in Lenz clearly worked in the transportation industry
for a trucking company, the Eight Circuit held this factor against
him because “he never directly transported goods in interstate
commerce.” Id. So too here—even granting that Plaintiff worked
in the transportation industry, she has “never directly
transported goods in interstate commerce,” so this factor weighs
against her. Contra [28 at 1].
7

42a
she was a transportation worker under § 1 of the FAA.
Id. at 593-594.8 Although Ramp Supervisors (such as
Plaintiff) supervise employees, they do not direct the
interstate shipment of goods or manipulate the
channels of commerce themselves (by, for example,
directing specific pilots to fly specific routes with
specific goods in tow) and therefore are not
transportation workers under this exception. See
generally [27-2]. Moreover, Palcko explicitly limited
its holding to exclude warehouse managers who load
and unload goods; as explained above, such
warehouse
employees
are
virtually
indistinguishable from the Ramp Supervisors in the
instant case. Palcko, 372 F.3d at 594 n.2
(distinguishing Kropfelder).
IV. Conclusion
For the foregoing reasons, Defendant’s motion
to dismiss [13] is granted, and Plaintiff’s claims must
be arbitrated. Civil case terminated.

The case in Zamora is quite similar, insofar as the manager
was found to be a transportation worker because she monitored
truckers’ routes, mileage, and cargo, and directed their
movements. Zamora, 2008 WL 2369769 at *1. Zamora is further
distinguishable from this case because the manager at issue
occasionally drove for the employer. Id. at *7. Under Kienstra,
that may be enough, on its own, to qualify the manager as a
transportation worker.
8

43a

Dated:
OOctober
October 8, 2019
8, 2019

Robert M. Dow, Jr.
United States District Judge

